App. 1
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
BRYANT KAZUYOSHI IWAI,

No. 18-10015
D.C. No.
1:15-cr-00723DKW
OPINION

Defendant-Appellant.
Appeal from the United States District Court
for the District of Hawaii
Derrick Kahala Watson, District Judge, Presiding
Submitted February 14, 2019*
Honolulu, Hawaii
Filed July 23, 2019
Before: Richard C. Tallman, Jay S. Bybee,
and N. Randy Smith, Circuit Judges.
Opinion by Judge Tallman;
Dissent by Judge Bybee
COUNSEL
Myles S. Breiner, Honolulu, Hawaii, for DefendantAppellant.

* The panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2).

App. 2
Mark A. Inciong, Assistant United States Attorney;
Kenji M. Price, United States Attorney; United States
Attorney’s Office, Honolulu, Hawaii; for PlaintiffAppellee.
OPINION
TALLMAN, Circuit Judge:
Defendant Bryant Iwai appeals the final judgment
and sentence in his drug trafficking case and challenges the denial of his motion to suppress evidence.
Iwai entered a conditional plea of guilty to prosecute
this appeal. The charges arose from a controlled delivery of methamphetamine to his residence conducted
by the United States Postal Inspection Service, Drug
Enforcement Administration (“DEA”) agents, and local drug task force officers (collectively “agents”). The
agents secured a court order authorizing insertion of
a tracking device to conduct the controlled delivery,
but their subsequent entry into Iwai’s condominium to
secure the package was warrantless. Nevertheless,
considering the totality of the circumstances, the district court ruled that exigent circumstances existed to
justify the agents’ entry. We affirm.
I
On August 4, 2015, the United States Postal Inspection Service in Honolulu intercepted a package
from Las Vegas, Nevada, that was addressed to Iwai’s
condominium. After a narcotic detection dog alerted to
the presence of a controlled substance in the package,

App. 3
a search warrant was obtained to open the box. Among
other incriminating evidence, the box contained
roughly six pounds of methamphetamine.
The next day, DEA agents obtained a second judicial authorization to track a controlled delivery of the
package to Iwai’s condominium building. Agents removed a majority of the methamphetamine and replaced it with a non-narcotic substitute, leaving behind
only a small representative sample of the drug. They
also placed in the package a GPS tracking device,
which identified the location of the package, and contained a sensor, which would activate a rapid beeping
signal on their monitoring equipment when the package was subsequently opened.
The agents learned that Iwai’s residence was located in a multi-story condominium building that did
not permit direct delivery of packages to a particular
unit, but rather utilized a central location to which
packages were delivered for its residents. Believing
that they did not have the requisite probable cause
that the package would actually end up in Iwai’s unit,
the agents did not, as they normally would have, seek
an anticipatory search warrant to enter his residence
in order to secure the box once the beeper was triggered. The agents testified that at this point in the investigation, they had no way of knowing whether the
package would be retrieved in the central mail room
and removed from the property and taken somewhere
else.

App. 4
At approximately 11:48 a.m. on August 5, 2015, a
United States Postal Inspector posing as a mail carrier
went to the condominium building, and from the lobby
callbox telephoned Iwai’s unit number to notify him
that he had received a package. Iwai answered from
his cell phone and requested that the package be left
at the front desk with the manager. The Inspector complied.
When Iwai returned at approximately 12:56 p.m.,
the agents observed him pick up the package from the
manager and bring it up the elevator and into his unit.
Agents maintained surveillance outside to see what
might transpire.
At 3:15 p.m., the beeper activated, signaling the
package had been opened inside Iwai’s unit. The agents
went to Iwai’s door, and knocked and announced their
presence. After no initial response, Agent Richard
Jones saw shadowy movements through the peephole,
indicating that someone had come to the door, which
had yet to open. After announcing their presence
again, Agent Jones saw the figure walking away from
the door. He knocked and announced again, but received no response. Agent Jones, the only agent directly in front of the door, then heard noises from
inside the unit that sounded like plastic and paper
rustling. He interpreted these noises to mean that Iwai
was destroying evidence, which in his judgment required immediate action to prevent, and the agents
forced entry at approximately 3:17 p.m.

App. 5
When the agents entered, Iwai was in the kitchen
area, and the package was lying on the floor in the living room. Apparently, the signaling device had malfunctioned, because the package was still unopened.
While securing the residence, the agents observed in
plain view on a table in the living room a gun and zip
lock bags containing what appeared to be a powder resembling methamphetamine.
After securing the premises, Agent Jones asked
Iwai for verbal consent to search the residence; consent
was given, and a few minutes later Officer Jennifer
Bugarin arrived with a consent-to-search form. Iwai
was cooperative and calm, and promptly signed the
consent form. After receiving Iwai’s consent, in addition to seizing the weapon, “law enforcement officers
searched the apartment and found approximately 14
pounds of crystal methamphetamine, more than
$32,000 in United States currency, a digital scale, a
ledger, and plastic bags.”
Iwai moved to suppress all evidence and statements the government obtained from the controlled
delivery operation, and the district court held a multiday evidentiary hearing on the motion. The court denied Iwai’s motion to suppress, holding, in relevant
part, that the agents’ entry was justified to prevent
the imminent destruction of evidence, that the subsequent seizure of objects in plain view was lawful, and
that Iwai’s consent was voluntary. Following the denial
of the suppression motion, Iwai entered a conditional
guilty plea to conspiracy to possess and distribute

App. 6
methamphetamine, and possession of a firearm in furtherance of a drug trafficking crime.
II
We review de novo the denial of a motion to suppress evidence, which presents a mixed question of
law and fact. United States v. Crawford, 372 F.3d 1048,
1053 (9th Cir. 2004) (en banc). While “[t]he ultimate
issue of whether exigent circumstances justify a warrantless entry and/or search” is reviewed de novo,
United States v. Wilson, 865 F.2d 215, 216 (9th Cir.
1989), the district court’s findings of fact are reviewed
for clear error. United States v. Washington, 490 F.3d
765, 769 (9th Cir. 2007).
III
A warrantless search of a home is “presumptively
unreasonable” because “the physical entry of the home
is the chief evil against which the wording of the
Fourth Amendment is directed.” Payton v. New York,
445 U.S. 573, 585–86 (1980) (quotations and citation
omitted). This presumption is overcome only “when
‘ “the exigencies of the situation” make the needs of law
enforcement so compelling that [a] warrantless search
is objectively reasonable under the Fourth Amendment.’ ” Kentucky v. King, 563 U.S. 452, 460 (2011)
(quoting Mincey v. Arizona, 437 U.S. 385, 394 (1978)).
Preventing the imminent destruction of evidence is
one such exigency, and exists when “officers, acting on
probable cause and in good faith, reasonably believe

App. 7
from the totality of the circumstances that [ ] evidence
or contraband will imminently be destroyed. . . .”
United States v. Ojeda, 276 F.3d 486, 488 (9th Cir. 2002)
(per curiam) (quoting United States v. Kunkler, 679
F.2d 187, 191–92 (9th Cir. 1982)). Probable cause exists
where, under the totality of the circumstances, there
is “a fair probability or substantial chance of criminal
activity.” United States v. Alaimalo, 313 F.3d 1188,
1193 (9th Cir. 2002). “The government bears the burden of showing specific and articulable facts to justify
the finding of exigent circumstances.” Ojeda, 276 F.3d
at 488.
It is undisputed here that, although the agents
obtained a warrant to open the package and a second
judicial authorization to insert a tracking device and
alarm, they did not seek a warrant to subsequently
enter Iwai’s condominium to retrieve the package. Iwai
contends, and the Dissent agrees, that the evidence
found in his home should thus be suppressed because
the agents could have, and therefore should have, obtained an anticipatory search warrant. See Dissent at
16–26. But this disregards the Supreme Court’s admonition that officers have no constitutional duty to
obtain a warrant as soon as they have probable cause.
See King, 563 U.S. at 467. Rather, the consequence of
failing to obtain a warrant is that any entry into a residence is presumptively unreasonable without an applicable exception. Id. at 459. Thus, whether or not the
agents could have obtained an anticipatory search
warrant in this case is beside the point: The relevant

App. 8
fact is simply that they did not, and any entry into
Iwai’s residence was presumptively unreasonable. Id.
Because the agents did not have a warrant to enter and retrieve the package, their entry is lawful only
if an exception to the warrant requirement such as exigent circumstances existed. Considering the totality
of the circumstances on the evidence presented at the
hearing, the district court credited the agents’ testimony and concluded that they reasonably believed
that the imminent destruction of evidence existed to
justify the agents’ entry. See Ojeda, 276 F.3d at 488.
The court’s finding of exigency was based on the
following key evidence adduced at the hearing: (1) six
pounds of methamphetamine had been intercepted the
day before in a package addressed to Iwai; (2) the
multi-story condominium complex had a central mail
room to which all packages had to be delivered, preventing the agents from sending the package on a sure
course to Iwai’s unit; (3) the agents observed Iwai take
the package up to his unit; (4) the beeper thereafter
signaled that the package had been opened; (5) the
agents knew that drugs are easily destroyed or disposed of; (6) upon knocking on the door, Agent Jones
saw a shadowy figure approach the door and then retreat; and (7) Agent Jones then heard a suspicious rustling noise from inside, which in his experience as a
highly trained narcotics investigator, indicated the destruction of evidence was occurring. The district court
believed the agents were testifying truthfully. And no
evidence refutes the conclusion that the agents were
acting in good faith.

App. 9
Considering all of these facts together, it was reasonable to conclude that the destruction of incriminating evidence was occurring. Exigency arose at the time
Agent Jones heard the suspicious sounds. But to focus
on the noises in isolation from all other factors, as the
Dissent does, is not a proper “totality of the circumstances” analysis.1 See Dissent at 32–34; Ojeda, 276
F.3d at 488. Agent Jones did not hear “a rustling of papers or plastic or something to that effect” in a vacuum.
Six pounds of methamphetamine had been discovered
the day before in the package addressed to Iwai. At
those quantities, agents were clearly investigating a
major drug distributor. The agent heard this noise after the beeper had signaled that the package had been
opened, and he knew Iwai was inside.
Although the Dissent questions the significance
of the noises Agent Jones heard, Dissent at 32–34,
conduct meaningless “to the untrained eye of an appellate judge . . . may have an entirely different significance to an experienced narcotics officer” like Agent
Jones. United States v. Hicks, 752 F.2d 379, 384 (9th
Cir. 1985) (citing Bernard, 623 F.2d at 560), overruled
on other grounds by United States v. Ramirez, 523 U.S.
65 (1998). Agent Jones believed that the noise he heard
1

Indeed, our caselaw recognizes that even in situations
where “no one event, considered in isolation, would be sufficient,
the ‘succession of superficially innocent events [can proceed] to
the point where a prudent man could say to himself that an innocent course of conduct was substantially less likely than a criminal one.’ ” United States v. Bernard, 623 F.2d 551, 560 (9th Cir.
1979) (quoting United States v. Patterson, 492 F.2d 995, 997 (9th
Cir. 1974)).

App. 10
was Iwai destroying evidence, the trial court found his
testimony credible, and there is no evidence in the record to suggest otherwise.2 See Ornelas v. United States,
517 U.S. 690, 699 (1996) (“[A] reviewing court should
take care . . . to give due weight to inferences drawn
from those facts by resident judges and local law enforcement officers.”); United States v. Craighead, 539
F.3d 1073, 1082 (9th Cir. 2008) (“Where testimony is
taken, we give special deference to the district court’s
credibility determinations.”).
This situation is distinguishable from United
States v. Mendonsa, 989 F.2d 366 (9th Cir. 1993). In
Mendonsa, the officers heard only generic nondescript
noise and “pointed to no particular type of noise, which
would indicate that the occupants were rushing . . . to
destroy evidence.” Id. at 371. Here, by contrast, Agent
Jones heard a specific noise more incriminating and
more suggestive of destruction of evidence than the
“soft music” and general living sounds coming from
Mendonsa’s apartment.3 Id. at 370–71. See also United
2

To the extent that Iwai suggests that Agent Jones made up
the noise, the district court listened to the witnesses and found
Agent Jones specifically credible on that point. On this record,
that factual finding was not clearly erroneous. See Easley v.
Cromartie, 532 U.S. 234, 242 (2001) (noting that clear error requires a “definite and firm conviction that a mistake has been
committed” (quoting United States v. United States Gypsum Co.,
333 U.S. 364, 395 (1948))); Washington, 490 F.3d at 769 (overturning a factual finding requires clear error).
3
We disagree with the Dissent’s assertion that these noises
could not indicate destruction of evidence. See Dissent at 32–34.
It would be reasonable to conclude that Iwai was rustling through
the package to hastily grab the incriminating evidence and

App. 11
States v. Alfonso, 759 F.2d 728, 742–43 (9th Cir. 1985)
(holding that “a ‘hurried scuffling noise’ coming from
the bathroom” of the defendant’s hotel room could reasonably indicate imminent destruction of evidence);
United States v. Almonte-Baez, 857 F.3d 27, 33 (1st Cir.
2017) (holding that exigency due to imminent destruction of evidence existed where “agents knocked on the
front door of the apartment and identified themselves,
[ ] heard someone inside the apartment running away
from the door,” and “noticed that the door was sealed
shut”); United States v. Clement, 854 F.2d 1116, 1119–
20 (8th Cir. 1988) (noting that “essential circumstances
included the lack of response at the door after knocking, seeing someone approach the door, look through
the peephole and retreat, [ ] hearing a scrambling
noise,” and “the gravity of the offense”). In sum, the
rustling noises, along with all the other factors known
to Agent Jones, were sufficient to create exigency under applicable precedent.
We do not consider whether the fact that the package was in Iwai’s apartment for two hours before the
beeper went off affects our exigent circumstances analysis because Iwai only challenged the district court’s
exigent circumstances determination on the ground
that the Government should have sought an anticipatory warrant. We do not understand Kentucky v. King
to be clearly irreconcilable with considering, in the totality of the exigent circumstances inquiry, whether
destroy it before the agents entered, or that the rustling noises
indicated that Iwai was preparing to burn or shred evidence or
other incriminating material.

App. 12
the police acted in an objectively reasonable manner in
the period preceding the exigency. See 563 U.S. at 462
(“[T]he answer to the question before us is that the exigent circumstances rule justifies a warrantless search
when the conduct of the police preceding the exigency is
reasonable in the same sense.” (emphasis added));
United States v. Good, 780 F.2d 773, 775 (9th Cir. 1986).
Finally, the Dissent concludes that any exigency
was created by the agents conducting an improper
“knock and talk.” Dissent at 36–40. But Iwai did not
make this argument in the district court below, nor
does he raise it before us now, and we need not address
it. See Padgett v. Wright, 587 F.3d 983, 986 n.2 (9th Cir.
2009) (noting that this court need not “consider matters on appeal that are not specifically and distinctly
raised in appellant’s opening brief,” nor “review [ ] issue[s] not raised below. . . .” (quoting Int’l Union of
Bricklayers & Allied Craftsman Local Union No. 20
v. Martin Jaska, Inc., 752 F.2d 1401, 1404 (9th Cir.
1985))). That ends the inquiry.4
4

Even if we were to reach this issue, Kentucky v. King likely
forecloses any argument that the police created the exigency here.
563 U.S. at 469–70 (“When law enforcement officers who are not
armed with a warrant knock on a door, they do no more than any
private citizen might do. And whether the person who knocks on
the door and requests the opportunity to speak is a police officer
or a private citizen, the occupant has no obligation to open the
door or to speak.”); id. at 468 (“Police officers may have a very
good reason to announce their presence loudly and to knock on
the door with some force.”). Agent Jones waited an appropriate
amount of time for Iwai to “put some shorts on,” and also testified
that had Iwai decided to completely ignore the police at the door,
and no other factors triggering an exigency had occurred, he

App. 13
Because the agents entered lawfully under circumstances giving rise to an applicable exception to
the warrant requirement, Iwai’s subsequent consent to
search the unit was not tainted. See United States v.
Taheri, 648 F.2d 598, 601 (9th Cir. 1981) (concluding
that “unconstitutional conduct [ ] not sufficiently attenuated” can taint consent (emphasis added)). The evidence supports his plea of guilty.
IV
We conclude the record supports the trial court’s
decision that the agents’ warrantless entry was justified by exigent circumstances, Iwai’s subsequent consent for a more thorough search was not therefore
tainted by an illegal entry, and the district court did
not err by denying Iwai’s motion to suppress.
AFFIRMED.

BYBEE, Circuit Judge, dissenting:
Bryant Iwai was in big trouble. On August 4, 2015,
postal inspectors identified a suspicious package addressed to Iwai, and a narcotics detecting dog alerted
on the package. That same day, a postal inspector,
working with an interagency task force comprised of
would have retreated and held his position until they obtained a
search warrant, as required by caselaw. See Florida v. Jardines,
569 U.S. 1, 8 (2013); United States v. Perea-Rey, 680 F.3d 1179,
1188 (9th Cir. 2012).

App. 14
agents from the Drug Enforcement Agency (“DEA”)
and officers from the Honolulu Police Department
(“HPD”), obtained a search warrant to open the package. Inside were six pounds of crystal methamphetamine, a substantial haul. The following morning,
August 5, HPD officers obtained a second warrant—
referred to as a “beeper tracker warrant”—to conduct
a controlled delivery to Iwai’s apartment in Pearl City.
Officers first removed the six pounds of meth and replaced it with rock salt and one gram of meth. They
also added a GPS tracking device and a credit cardsized device that would alert the officers if the box was
opened. The officers dusted the contents with a blacklight sensitive powder, repacked the box, and arranged
for a postal inspector to deliver the box to Iwai’s apartment complex in Pearl City the same day.
The task force was well prepared. Two officers
dressed in plain clothes were in the manager’s office
where they could watch the lobby and the complex’s
surveillance cameras, a surveillance team was posted
outside the building, another team covered the emergency exits, and a team was posted in the stairwell
near the 23rd floor—Iwai’s floor. The entire task force
operation was directed by an HPD officer secreted in
the stairwell of the 33rd floor. The officers observed
Iwai leave the apartment at 11:15am. Then just before
noon, the postal inspector took the box to the complex
and spoke with the manager. Because the box was too
large to fit in a mail slot or a parcel locker, the postal
inspector called Iwai’s apartment from the lobby. Iwai
picked up the call on his cell phone, told the inspector

App. 15
that he was “on the road” and that his girlfriend would
pick it up; after she did not, the inspector called again
and offered to leave the package with the manager so
that Iwai could pick it up later. Approximately an hour
later, Iwai retrieved the box, and the officers observed
him take it to his apartment on the 23rd floor. The
teams waited patiently for some indication that the
box had been opened. At about 3:15 p.m.—more than
three hours since they had delivered the box and two
hours since Iwai had picked it up—the beeper went off,
indicating that the box may have been opened. Some
seven officers on the stairwell on the 23rd floor geared
up in body armor and, carrying a ballistic shield and a
battering ram, went to Iwai’s apartment. The lead officer in the stairwell, DEA Agent Jones, holding the
shield and a drawn weapon, knocked on the door, yelled
“police,” and demanded that Iwai open the door. He
kicked the door another three times and continued to
demand that Iwai open the door. At that point, Jones
looked through the peephole and saw a shadow moving. He announced several times, “Bryant, I can see you
through the peephole. Open the door.” Jones continued
to knock and announce. Finally, Jones stopped knocking, and listening, he heard noises “like somebody going through a garbage can . . . like, a rustling of papers
or plastic or something to that effect.” Jones testified
that he was afraid that Iwai was destroying evidence,
so he ordered the officer with the ram to breach the
door, and the officers spilled in. Iwai was alone inside,
standing in the kitchen. The package containing the
meth was in the living room, unopened.

App. 16
Over the course of just two days, August 4–5, the
task force had obtained two warrants—one to open the
package identified by the postal inspectors and one to
effect a controlled delivery with a GPS tracker and a
beeper. The task force had employed at least a dozen
officers at Iwai’s apartment complex for nearly four
hours before a team of seven officers, armed, in body
armor, and carrying a ballistic shield and a battering
ram, breached Iwai’s apartment. Yet at no time did the
officers make any effort to obtain a search warrant for
Iwai’s apartment. They later testified that they did not
think they could obtain an anticipatory warrant because they could not be sure that Iwai would take the
package from the mailroom to his apartment. They offered no explanation for why, once they knew that Iwai
had retrieved the package and taken it into his apartment, they did not seek a warrant but waited in the
stairwell for a beeper that might or might not go off.
Once the beeper did go off—a false positive, as it
turned out—the officers demanded that Iwai open his
door to them, and when he chose not to and instead
had the audacity to move about his apartment and
“rustle” paper, they broke the door down.
The Fourth Amendment does not protect us from
searches and seizures in our “persons, houses, papers,
and effects.” U.S. Const. amend. IV. Just from “unreasonable” ones. Id. This was an unreasonable search
and seizure. The officers had Iwai dead to rights. They
knew he was likely a big cog in a meth distribution operation in Honolulu. The care with which they planned
and conducted the controlled delivery and the stake

App. 17
out at Iwai’s apartment complex is ample evidence of
that. What is inexplicable is why the officers failed to
make any attempt to secure a warrant before they
breached his apartment to secure the “evidence”—the
one gram of meth and six pounds of rock salt the officers themselves had placed in the box. This is too much
for me. I would suppress the evidence obtained from
the search.
In Part I, I address why the officers should have
obtained an anticipatory warrant. In Part II, I address
why they should have sought a warrant once Iwai returned to his apartment with the package. In Part III,
in a closer question, I conclude that the officers lacked
facts supporting exigent circumstances and, in any
event, created the exigent circumstances when they
violated the Fourth Amendment in their knock and
announce. I respectfully dissent.
I
The officers should have sought an anticipatory
warrant. Anticipatory warrants are designed for this
precise situation—an immediate search upon completion of a controlled delivery. See, e.g., United States v.
Penney, 576 F.3d 297, 311 (6th Cir. 2009) (“[A]nticipatory search warrants are typically sought to conduct
searches triggered by a police-controlled delivery of
contraband. . . .”); William E. Ringel, Searches and
Seizures, Arrests and Confessions § 4:9 (2d ed. 2019)
(collecting cases where anticipatory warrants were
obtained for controlled delivery); 67 A.L.R.5th 361

App. 18
(same). As the Supreme Court has explained, “[a]n anticipatory warrant is ‘a warrant based upon an affidavit showing probable cause that at some future time
(but not presently) certain evidence of crime will be
located at a specified place.’ ” United States v. Grubbs,
547 U.S. 90, 94 (2006) (quoting 2 W. LaFave, Search
and Seizure § 3.7(c) (4th ed. 2004)). In Grubbs, the
Court upheld the constitutionality of anticipatory warrants because they are “no different in principle from
ordinary warrants. They require the magistrate to determine (1) that it is now probable that (2) contraband,
evidence of a crime, or a fugitive will be on the described premises (3) when the warrant is executed.” Id.
at 96. Thus, the supporting affidavit from police must
show “not only that if the triggering condition occurs
there is a fair probability that contraband or evidence
of a crime will be found in a particular place, but also
that there is probable cause to believe the triggering
condition will occur.” Id. at 96–97 (quotation marks
and citation omitted); accord United States v. Perkins,
887 F.3d 272, 274 (6th Cir. 2018) (“Anticipatory search
warrants, like all search warrants, require probable
cause. . . . The triggering event provides that cause.”);
United States v. Vesikuru, 314 F.3d 1116, 1119 (9th Cir.
2002) (“The execution of an anticipatory search warrant is conditioned upon the occurrence of a triggering
event.”).
In a controlled delivery, the triggering event occurs when the package containing contraband is physically taken into the location specified in the warrant.
See Grubbs, 547 U.S. at 94; United States v. Becerra, 97

App. 19
F.3d 669, 671 (2d Cir. 1996) (“The warrant remains contingent until delivery because some uncertainty exists
as to whether the suspect will give further credence to
that relationship by accepting the package.”). The supporting affidavit must demonstrate probable cause—a
“fair probability”—to believe that the package will be
taken to the specified location. Grubbs, 547 U.S. at 95.
We have held that the affidavit must show that “the
property sought is on a sure course to the destination
targeted for the search.” United States v. Ruddell, 71
F.3d 331, 333 (9th Cir. 1995) (emphasis added).
Here, five officers testified at the suppression
hearing that “[they] couldn’t obtain an anticipatory
search warrant.” Well-trained, the officers each testified that they could not be certain that the package was
on a “sure course” to Iwai’s apartment. Their sole explanation for this belief was that “the parcel would not
have been delivered to the exact unit” but rather “to
the downstairs office area where residents of that place
could actually come and pick up the parcels.” The majority accepts this explanation, concluding that the officers had no way of knowing whether “the package
would actually end up in Iwai’s unit” or “whether the
package would be retrieved in the central mail room
and removed from the property and taken somewhere
else.” Maj. Op. at 4. The officers’ explanation for their
decision and the majority’s acceptance of that rationale
are inconsistent with our cases and contradicted by the
officers’ own actions.

App. 20
A
I am not sure what prompted the officers’ impression about the “sure course” requirement, but they
have badly misunderstood the anticipatory warrant
cases. Accepting the government’s reasoning would
abrogate the need for anticipatory warrants almost
entirely. As I discussed above, an anticipatory warrant
cannot be executed until a triggering condition occurs,
and for a controlled delivery, the triggering condition
is when the package enters the place to be searched.
See Grubbs, 547 U.S. at 94; United States v. Ricciardelli,
998 F.2d 8, 13 (1st Cir. 1993) (“[T]he event that triggers
the search must be the delivery of the contraband to
the premises to be searched. . . .”). At the point of delivery to the specified location—not before—there is
probable cause. See Vesikuru, 314 F.3d at 1119 (“If the
triggering event does not occur, probable cause to
search is lacking.”). The fact a package may not enter
a residence is precisely why an anticipatory warrant is
a conditional warrant: if the condition is not satisfied,
there is nothing to execute.
The purpose of the “sure course” requirement is to
create a nexus between the contraband and the place
to be searched. Delivering a package to a residential
address creates that nexus.5 See, e.g., Vesikuru, 314
5

The surety of a package’s course is further confirmed when
the police are in full control of the delivery. “[A]ll types of government-controlled deliveries are more likely to reach their destinations than other types of deliveries and that, consequently, a
magistrate may conduct a lesser inquiry into the sure course requirement when a request for an anticipatory warrant is based
upon a government-controlled delivery.” Dennis, 115 F.3d at 531;

App. 21
F.3d at 1122; United States v. Dennis, 115 F.3d 524,
530–31 (7th Cir. 1997); United States v. Hugoboom, 112
F.3d 1081, 1087 (10th Cir. 1997); United States v. Wylie,
919 F.2d 969, 974–75 (5th Cir. 1990); United States v.
Dornhofer, 859 1195, 1198 (4th Cir. 1988); United
States v. Goodwin, 854 F.2d 33, 35–36 (4th Cir. 1988).
The cases are quite clear that placing a package containing a valid mailing address in the mail establishes
probable cause—a “sure course”—to believe that the
package will be found at that destination. See Dennis,
115 F.3d at 531 (“[W]here nothing in the record indicates that the contraband might not have been delivered to the residence to be searched, simply
discovering the package in the mail stream and placing it back into the mail stream to effect a controlleddelivery should satisfy the sure course requirement.”);
Dornhofer, 859 F.2d at 1198 (“When [the officer] placed
the contraband in the mail, the requirement . . . that
the contraband was on a sure course to its destination
was met.”). Here, the fact that a postal inspector was
delivering the package directly to Iwai’s apartment
complex, where all his mail was delivered, creates a
nexus between the contraband and his apartment
sufficient to establish probable cause, or a “fair
United States v. Leidner, 99 F.3d 1423, 1429 (7th Cir. 1996)
(“[G]overnment-controlled deliveries may be more likely to reach
their destination than those deliveries expected within the normal course of a drug organization’s operations.”); United States v.
Scheffer, 463 F.2d 567, 575 (5th Cir. 1972) (finding “there [was]
simply no plausible explanation as to why customs officials failed
to go before a magistrate and obtain a search warrant” when the
officials “actually planned the cocaine transfer and could have
controlled the time at which it took place”).

App. 22
probability,” that the package would enter his residence. Grubbs, 547 U.S. at 95. This is a sufficient basis
for seeking an anticipatory warrant, even though there
is a possibility that a package won’t make it onto the
premises identified in the warrant. See Ricciardelli,
998 F.2d at 11 (“[S]o long as the requisite probability
exists, the possibility that things might go awry does
not forestall the issuance of a warrant.”). And if, in the
end, the condition does not occur, and the warrant can’t
be executed, the police will have to take alternative
measures, but at least they will have made a good faith
effort to satisfy the Fourth Amendment’s warrant requirement.
The “sure course” principle comes from our decision in United States v. Hendricks, 743 F.2d 653, 655
(9th Cir. 1984). The police delivered a package addressed to the defendant at a post office location that
required him to come pick it up. Concurrently, the police obtained an anticipatory warrant to search his
home. The defendant argued that there was no probable cause to support the warrant, and we agreed. We
observed that the package was never on a sure course
to the defendant’s house because “the agents had no
information giving rise to a belief that the package
would ever go to [the defendant’s] home.” Id. at 655. We
explained that the defendant’s “business premises
were the only place that was linked to past illegal activity, the residence not at all.” Id. at 654. In other
words, there was no nexus between the package and
the home—only between the package and the business
premises. We specifically noted that mail addressed

App. 23
and sent to the house, rather than a P.O. Box, would
have been sufficient. See id. at 655 (“[U]nless the suitcase were on a sure course to the house, for example, in
the mail addressed to the home address, no probable
cause would exist to believe it would arrive there.”)
(emphasis added) (citations omitted); accord United
States v. Rowland, 145 F.3d 1194, 1204–06 (10th Cir.
1998) (finding a package was not on a “sure course” to
his residence when defendant was required to pick up
the package at the post office); Ricciardelli, 998 F.2d at
12–14 (same).
We have elaborated on Hendricks in subsequent
cases. In United States v. Hale, for example, the agents
obtained an anticipatory warrant to seize obscene
material mailed to Hale at his home. 784 F.2d 1465,
1467–68 (9th Cir. 1986), abrogated in part on other
grounds by New York v. P.J. Video, Inc., 475 U.S. 868,
875 (1986). The Postal Service actually delivered the
envelopes to Hale “in the front yard of his home.” Id. at
1468. We distinguished Hale from Hendricks. “In
Hendricks, the evidence was not on a sure and irreversible course to its destination” because it was
headed to the post office—without any nexus to Hendricks’ home. Id. By contrast, in Hale “the evidence was
in the mail addressed to Hale for home delivery.” Id. at
1468–69 (emphasis added). Similarly, in United States
v. Ruddell, the anticipatory warrant was issued for
child pornography addressed to Ruddell’s residence. 71
F.3d 331, 332 (9th Cir. 1995). We once again explained
that the problem in Hendricks was that the “magistrate judge could not establish a reasonable belief that

App. 24
the defendant would bring the contraband to his
home.” Id. at 333. Unlike in Hendricks, in Ruddell, “the
evidence was in the control of the Postal Inspector, who
had explicitly described her plans to execute a controlled delivery to [the defendant’s] house in her affidavit in support of the warrant.” Id.
We applied these principles in United States v.
Vesikuru, a case very similar to this one. 314 F.3d at
1122–23. In Vesikuru, a narcotics task force, executing
a search warrant, discovered PCP in a package addressed to a residence in Seattle. Id. at 1118. The officers arranged for a controlled delivery and obtained an
anticipatory warrant to search the residence. Id.
Vesikuru argued that the anticipatory warrant lacked
probable cause. We disagreed, emphatically. The fact
that the “package was addressed and en route to the
West Seattle residence . . . guaranteed that the package was on a ‘sure course’ to the West Seattle residence.” 314 F.3d at 1122 (emphasis added).
Here, as in Hale, Ruddell, and Vesikuru, Iwai’s
package was fully and properly addressed to him at a
residence where he regularly received mail. There was
no reason to believe that Iwai would not pick up the
package in the usual course and take it to his apartment. This case is unlike Hendricks, where the officers
sought to search Hendricks’s house, even though the
delivery was to a post office box and the officers knew
that Hendricks had been conducting his illegal actions
at his office, not his house.

App. 25
The officers explained that they didn’t think they
could obtain an anticipatory warrant because they
couldn’t be sure that Iwai would take the package to
his apartment. Of course, the officers are correct: Iwai
might have taken the package directly to his car. He
might have taken it to someone else’s apartment. Or,
he might have refused delivery. But the package was
delivered by regular mail to an address at his apartment building. People in apartment buildings regularly receive mail; and, like house dwellers, they often
take their mail to their apartments. The fact that Iwai
lived in an apartment on the 23rd floor and had to retrieve the package from the manager’s office does not
diminish the likelihood that Iwai would return to his
apartment with the package. See Dennis, 115 F.3d at
527, 530–31 (upholding an anticipatory warrant for a
controlled delivery to an apartment; postal inspector
actually delivered the package to the defendant seated
outside on the porch, who took it inside); Dornhofer,
859 F.2d at 1197–98 (upholding anticipatory warrant
for delivery to a mail box outside of the apartment to
be searched). The officers’ explanation is thin gruel.
When we are dealing with probable cause, we are always playing the percentages. Grubbs, 547 U.S. at 95
(“Because the probable-cause requirement looks to
whether evidence will be found when the search is
conducted, all warrants are, in a sense, ‘anticipatory.’ ”). To obtain any warrant, a police affidavit must
explain to a magistrate why the police have reason to
believe that evidence of a crime will be found in a particular place. It is always a predictive judgment.

App. 26
Short of sliding mail through a slot in the front
door, there is no way to ensure that any package will
cross the threshold of any particular dwelling. Place it
on a porch or put it in a mailbox? Someone can pick it
up and carry it off the premises. Knock on the door to
hand-deliver? The addressee may refuse the package
or take it directly to her car or over to the neighbor’s
house or even to the public library. What if a home has
a very long driveway, and the owner drives down it to
retrieve the mail? What if the mailboxes to homes or
condos are at the entrance to a complex or subdivision?
Many modern subdivisions have a group mailbox in
the neighborhood with a separate parcel locker for
oversized packages. Are these homes no longer candidates for anticipatory warrants because the owner
might not return home with the mail? Are the only persons eligible for an anticipatory warrant those who, for
better or worse, still have a mail slot in the door?6
These distinctions seem utterly arbitrary. Since
Hendricks, the issue is not whether the package will
surely enter a residence, it is whether it is surely
headed that way, and Iwai’s package was properly and
fully addressed to him, including his apartment
number. Upholding the government’s reasoning—that
6

In Hale, “[t]he packages were handed to Hale in the front
yard of his home.” 784 F.2d at 1468. If the magistrate had known
that Hale would be in his front yard, would he still have issued
an anticipatory warrant? What, other than our common experience, tells us that Hale was likely to take the packages into the
house? In Hale’s case, fortunately for the police, he did and the
police were able to execute the warrant, but the police had no
guarantee that he would do so.

App. 27
delivery to a central mailroom in an apartment complex is insufficient to establish probable cause for an
anticipatory warrant—substantially reduces Fourth
Amendment protection for anyone who lives in an
apartment.
B
The officers may have testified that they weren’t
sure where Iwai would go with the package, but we
don’t have to speculate as to where the task force
thought Iwai would take it—their actions make it unmistakably clear: the task force put two officers in the
lobby to see if Iwai went upstairs or somewhere else; it
located a couple of officers outside, presumably in case
he left the building on foot or in his car; and it put at
least seven officers in the stairwell on the 23rd floor.
The task force knew that Iwai might take the package
somewhere else; but their actions reveal that they also
knew it is was most likely that Iwai would take it to
his apartment. See United States v. Golson, 743 F.3d
44, 54–55 (3d Cir. 2014) (“[W]hile it was possible the
occupants of the residence would refuse delivery of
the Parcel, or accept delivery but leave the Parcel unopened, it was more probable they would accept and
open.”). In sum, the officers behaved precisely as they
would have if they had obtained an anticipatory warrant—they dedicated the bulk of their resources to
watching his apartment, but covered themselves in
case he didn’t. They played the percentages. They
watched Iwai take the package into his apartment,
waited for the beeper to go off, then immediately sent

App. 28
their team to the apartment. Had they obtained an anticipatory warrant, the condition would have been triggered the moment the package crossed the threshold,
and the search would have been valid.
The majority excuses the lack of a warrant by
pointing out that the police are not required to obtain
a warrant “as soon as they have probable cause.” Maj.
Op. at 8; see Kentucky v. King, 563 U.S. 452, 466–67
(2011). That is true but irrelevant. As the Supreme
Court explained in United States v. Watson, “[t]here is
no requirement that a search warrant be obtained the
moment police have probable cause to search. The rule
is . . . that present probable cause be shown and a warrant obtained before a search is undertaken.” 423 U.S.
411, 449 (1976) (emphasis added). The fact the officers
did not have to obtain a warrant the moment they had
probable cause is not an excuse for failing to obtain one
at all. Moreover, the consequences of the failure to obtain an anticipatory warrant are quite predictable—
and those consequences benefit neither the government nor the subject of the search. As the First Circuit
anticipated, “[w]ere ‘anticipatory warrants’ unlawful,
law enforcement agents would have to wait until the
triggering event occurred; then, if time did not permit
a warrant application, they would have to forego a legitimate search, or more likely, simply conduct the
search (justified by ‘exigent circumstances’) without
any warrant at all.” United States v. Gerndon, 18 F.3d
955, 965 (1st Cir. 1994) (Breyer, J.). Thus, the Eleventh
Circuit concluded, anticipatory warrants “better serve
the objective of the Fourth Amendment by allowing

App. 29
law enforcement agents to obtain a warrant in advance
of delivery, rather than forcing them to go to the scene
without a warrant and decide for themselves, subject
to second-guessing by judicial authorities, whether the
facts justify a search.” United States v. Santa, 236 F.3d
662, 673 (11th Cir. 2000).
The controlled delivery here was on a sure course
to Iwai’s apartment, the officers knew it and acted on
it, and they had probable cause—well-established in
our cases—to obtain an anticipatory warrant. They
should have done so and spared us the task of secondguessing their decision.
II
Even if the officers reasonably believed they could
not obtain an anticipatory warrant, that does not excuse their failure to seek a warrant once they knew
that Iwai had taken the package to his apartment. Exigency alone is insufficient to justify the officers’ warrantless entry. Rather, to establish exigency, “the
government must also show that a warrant could not
have been obtained in time, . . . [and] that a telephonic
warrant was unavailable or impractical.” United States
v. Good, 780 F.2d 773, 775 (9th Cir. 1986) (internal
citation omitted); cf. United States v. Young, 909 F.2d
442, 446 (11th Cir. 1999) (“[T]he appropriate inquiry is
whether the facts, as they appeared at the moment of
entry, would lead a reasonable, experienced agent to
believe that evidence might be destroyed before a
warrant could be secured.”) (emphasis added) (quoting

App. 30
United States v. Rivera, 825 F.2d 152, 156 (7th Cir.
1987)). “[I]f the state had time to obtain a warrant, it
stands to reason that there can be no ‘exigent circumstance.’ ” Kirkpatrick v. Cty. of Washoe, 843 F.3d 784,
791 (9th Cir. 2016) (en banc).
The government made no effort to show that the
task force could not have obtained a warrant in time.
The officers observed Iwai take the package into his
apartment at 12:50 pm. At that point, there was no debate that they had probable cause to obtain a warrant
to search the apartment. There were a dozen officers
on site, and the officers had already obtained two warrants in previous 24 hours—one that very morning at
9 am. Moreover, it would have been easy for the officers
to prepare an application in advance (even if they
didn’t submit it as an anticipatory warrant), to call in
if Iwai took the package into his apartment. Yet they
made no effort to do so. Instead, the officers waited
“around the apartment building’s perimeter, inside the
building manager’s office, and in stairwells near . . .
Iwai’s apartment,” for four hours—and during two
and a half of those, they were absolutely certain the
drugs were inside the apartment. A warrant could
have been obtained telephonically within minutes. See
Birchfield v. North Dakota, 136 S. Ct. 2160, 2192 (2016)
(“ ‘[A]dvances’ in technology . . . now permit ‘the more
expeditious processing of warrant applications.’ ”) (Sotomayor, J., concurring in part and dissenting in part)
(quoting Missouri v. McNeely, 569 U.S. 141, 154 n.4
(2013)); Leidner, 99 F.3d at 1425 & n.1 (explaining that
a judge orally authorized search after delivery was

App. 31
made to the residence); see also Fed. R. Crim. P. 4.1 (describing the procedure for obtaining a warrant by telephone); id. 41(d)(3) (authorizing telephone search
warrants); Haw. R. Penal P. 41(h)–(i) (allowing warrants to be obtained over the phone via an oral affidavit). But the officers neither obtained a warrant nor
provided any explanation why they failed to do so—or
even attempted to. Here, a warrant was available and
practical, and thus the officers cannot claim exigency.
See United States v. Alvarez, 810 F.2d 879, 884 (9th Cir.
1987) (“The action of the agents and the Assistant
United States Attorney in ignoring the telephone warrant procedure totally frustrates the accommodation
approved by Congress. It cannot be sanctioned by us.”).
It was, of course, possible that Iwai might have
opened the package before a warrant could be obtained, triggering the beeper. But at that point, the
officers still did not need to rush the apartment. Iwai
had no reason to suspect police presence outside his
apartment. Thinking that he had received a valuable
shipment of meth, Iwai would have no reason to destroy the drugs. King, 563 U.S. at 474 (“[P]ersons in
possession of valuable drugs are unlikely to destroy
them unless they fear discovery by the police.”); United
States v. George, 883 F.2d 1407, 1413 (9th Cir. 1989)
(“Suspects who are inside their homes and unaware of
their impending arrests generally have no reason [to]
immediately . . . destroy the fruits of their crime. . . .
Consequently, law enforcement officers confronting
this type of situation can, without great difficulty,
maintain surveillance of the premises.”) (citations

App. 32
omitted). The officers would have had no difficulty continuing surveillance while they obtained a telephonic
warrant, which can be done in as little as fifteen
minutes—considering they had already been watching
the apartment for four hours. See, e.g., McNeely, 569
U.S. at 173. And, again, if the officers had any reason
to believe that Iwai was about to destroy the evidence
while they worked to get a warrant, they retained the
option of entering under the exigent circumstances
doctrine. See Mincey v. Arizona, 437 U.S. 385, 394
(1978) (finding no exigent circumstances when “[t]here
was no indication that evidence would be lost, destroyed, or removed during the time required to obtain
a search warrant”); United States v. Reid, 226 F.3d
1020, 1028 (9th Cir. 2000) (“[T]he government did not
explain why the officers could not have simply staked
out the apartment while waiting for a warrant.”);
United States v. Impink, 728 F.2d 1228, 1231 (9th Cir.
1984) (“Where the police have ample opportunity to obtain a warrant, we do not look kindly on their failure
to do so.”); United States v. Blake, 632 F.2d 731, 734
(9th Cir. 1980) (“[U]nder the circumstances of this case
the acquisition of a warrant would not have presented
any great difficulty nor would have entailed the loss of
any substantial amount of time.”). The officers could
have continued to watch the apartment while a warrant was obtained—before or after the beeper went
off—or, at least, while they made a good faith effort to
obtain one. It was unreasonable for them not to seek a
warrant.

App. 33
III
Finally, I have at least a nagging feeling that “[t]he
agent[s’] actions in this case were . . . fundamentally
inconsistent with any true exigency.” Alvarez, 810 F.2d
at 882. This is a closer issue for me, but I am deeply
concerned that the officers jumped the shark when
they claimed they were entitled to enter Iwai’s apartment on the basis of observing furtive movements
through a peephole and hearing the rustling of paper
and plastic. I have two concerns: First, that the officers
lacked reasonable indicia that Iwai was about destroy
any evidence and, second, that any exigency here resulted from the officers’ own violations of the Fourth
Amendment.
A
“[P]hysical entry into the home is the ‘chief evil
against which the wording of the Fourth Amendment
is directed.’ ” Frunz v. City of Tacoma, 468 F.3d 1141,
1142 (9th Cir. 2006) (quoting United States v. U.S. Dist.
Court for E. Dist. of Mich., S. Div., 407 U.S. 297, 313
(1972)). Thus, a person’s home is “given the highest
protection against warrantless searches.” United
States v. Romero-Bustamente, 337 F.3d 1104, 1107 (9th
Cir. 2003) (citation omitted). A warrantless search is
presumptively unreasonable, and “the government
bears a heavy burden of demonstrating that exceptional circumstances justified a departure from the
normal procedure of obtaining a warrant.” United
States v. Driver, 776 F.2d 807, 810 (9th Cir. 1985)

App. 34
(emphasis added). “[E]xceptions to the warrant requirement are ‘narrow and their boundaries are rigorously guarded.’ ” Sandoval v. Las Vegas Metro. Police
Dep’t, 756 F.3d 1154, 1161 (9th Cir. 2014) (quoting
Hopkins v. Bonvicino, 573 F.3d 752, 763 (9th Cir.
2009)).
1
The officers claim that their warrantless entry
was justified because “acting on probable cause and in
good faith, [they] reasonably believe[d] from the totality of the circumstances that . . . evidence or contraband [would] imminently be destroyed.” United States
v. Ojeda, 276 F.3d 486, 488 (9th Cir. 2002); see Kirkpatrick, 843 F.3d at 791; United States v. Struckman, 603
F.3d 731, 738 (9th Cir. 2010). The government did not
provide sufficient facts to establish an objectively reasonable belief that Iwai was imminently destroying
evidence. “The exigency exception permits warrantless
entry where officers ‘have both probable cause to believe that a crime has been or is being committed and
a reasonable belief that their entry is necessary to
prevent . . . the destruction of relevant evidence.’ ”
Sandoval, 756 F.3d at 1161 (citation omitted). The government must provide “specific and articulable facts”
to justify the finding of exigent circumstances, id. (citation omitted), and we view the exigencies “from the
totality of circumstances known to the officers at the
time of the warrantless intrusion,” United States v.
Licata, 761 F.2d 537, 543 (9th Cir. 1985).

App. 35
First, the mere fact that agents knew there was
meth in Iwai’s apartment is not sufficient. See United
States v. Allard, 600 F.2d 1301, 1304 (9th Cir. 1979)
(“[T]he search cannot be justified solely because an
agent knows that there is contraband on the premises.”); see also Santa, 236 F.3d at 669 (“The mere presence of contraband . . . does not give rise to exigent
circumstances.”) (citation omitted); United States v.
Kane, 637 F.2d 974, 980 (3d Cir. 1981) (“[C]ourts have
. . . refused to find an exception based on the ‘mere
presence of drugs’ on the premises.”) (citation omitted).
Second, the fact that the beeper went off, signaling
that the package likely had been opened, does not
mean that drugs would be imminently destroyed. As
explained, Iwai had no knowledge of the police presence and surveillance, and thus he would have no reason to destroy valuable drugs. See Santa, 236 F.3d at
670 (“[The defendants], unaware of their impending
arrest, had no reason . . . to destroy the valuable drugs
they were trying to sell.”); United States v. Tobin, 923
F.2d 1506, 1511 (11th Cir. 1991) (“Circumstances are
not normally considered exigent where the suspects
are unaware of police surveillance.”); George, 883 F.2d
at 1412–15 (collecting cases).
Third, the fact that Iwai refused to open the door
does not create an exigent circumstance. “Every occupant of the home has a right—protected by the common law for centuries and by the Fourth Amendment
since 1791—to refuse entry” to police who do not have
a warrant. Georgia v. Randolph, 547 U.S. 103, 123–24
(2006) (Stevens, J., concurring). And police must imply

App. 36
refusal from a resident’s silence because “passive refusal to consent to a warrantless search is privileged
conduct which cannot be considered as evidence of
criminal wrongdoing.” United States v. Prescott, 581
F.2d 1343, 1351 (9th Cir. 1978); see United States v.
Mendonsa, 989 F.2d 366, 370 (9th Cir. 1993) (“A refusal
to reply to an officer’s order to ‘open up’ can be implied
from silence.”). Iwai’s decision to assert his Fourth
Amendment right to refuse entry to the officers cannot
be used to justify a finding of exigent circumstances.
Fourth, the majority and the district court point to
the fact that the lead agent, looking through the peephole, saw a shadowy figure approach the door and then
retreat. Maj. Op. at 8. That fact only confirms what the
officers knew—that Iwai was in the apartment and
now likely knew they were there—but it proves nothing about the exigent nature of the circumstances. He
had an absolute right not to open the door.
Fifth, and most importantly, the district court
credited DEA Agent Jones’s statement that he “heard
noises” through the door, like “a rustling of papers or
plastic.” By itself, the fact is pedestrian. “Merely hearing some noise inside is not sufficient to justify forcible
entry. Some noise is normal to ordinary living. . . .”
Mendonsa, 989 F.2d at 370–71. Jones identified no
sound of scrambling, running, yelling, running water,
flushing, or the opening of doors or windows, as one
would expect when a person rushes about to destroy
evidence of a crime. Compare United States v. Andino,
768 F.3d 94, 99 (2d Cir. 2014) (finding exigency when
the defendant “slammed shut the front door, ran from

App. 37
the door, opened and closed drawers, and turned on the
kitchen faucet”), United States v. Etchin, 614 F.3d 726,
734 (7th Cir. 2010) (“The sound of someone walking
around, for example, or a voice that announces, ‘The
cops are here,’ is not enough by itself. But other sights
and sounds—toilets flushing, a door slammed, people
running, an obvious lie by the person answering the
door, or efforts to remove contraband from the house—
may be evidence that there is an emergency that calls
for an immediate, warrantless intrusion.”), and United
States v. Leveringston, 397 F.3d 1112, 1116 (8th Cir.
2005) (finding exigency when there was “water continuing to run and a garbage disposal continuing to
grind”) with United States v. Ramirez, 676 F.3d 755,
762 n.5 (8th Cir. 2012) (finding no exigency when the
defendant’s reaction was not “the verbal, visual, or
aural equivalent of, ‘The police are here, destroy the
drugs’ ”). While we certainly give weight to the opinion
of experienced narcotics officers, even we know that
you cannot destroy drugs by rustling papers, no matter
how quickly or urgently you do so.
Agent Jones—no other officer heard the noises—
testified that he heard a noise “like somebody going
through a garbage can. Either, like, a rustling of papers
or plastic or something to that effect.” The officer testified that he feared “somebody might be destroying evidence.” But when asked by the government’s counsel
“[i]n your experience as a DEA agent” what methods
were used to destroy meth, he answered, “[m]ostly
through the sewer system, either being in the toilet,
shower, a sink, anything like that. Other things have

App. 38
been burning. Those would be the two main ones that
would come to mind.” What is the reasonable relationship between “the rustling of papers or plastic” and
“the sewer system” or “burning"? There is no evidence—nothing—in the record to suggest that the officers thought Iwai was about to flush or burn the
drugs. Agent Jones thought Iwai might be “going
through a garbage can.” But evidence isn’t destroyed
when you dump it in a trash can. And if he dumped it
in the trash, where could he possibly have gone with
the garbage bag when he lived on the 23rd floor? Not
to a garbage chute in the hall or to a dumpster downstairs—there were seven armed task force officers
standing between Iwai and any trash receptacle. And
if Iwai could have tossed it from a window, there were
officers outside watching the perimeter.
These five factors, considered together, are insufficient to establish exigency justifying battering down
Iwai’s door. True, the officers knew there was meth in
the apartment, believed the package had been opened,
and saw Iwai through the peephole. But police nearly
always know that drugs are inside before they send a
fully armed tactical team to bang on someone’s door,
and if a controlled delivery, they will likely always wait
until the beeper goes off. Iwai had every right not to
not open the door, and the fact he calmly walked away
from it hardly supports exigency. The only distinguishing factor—the “rustling” of paper and plastic—was
not sufficient to justify storming Iwai’s apartment. The
record simply doesn’t withstand scrutiny.

App. 39
2
I have two last points on the officers’ claim of exigent circumstances. First, I recognize that I have atomized the facts, and that the officers were entitled to
consider the totality of the circumstances: I have thus
previously confessed that this issue is closer for me
than the failure to obtain a warrant. However, even
taking all of these facts together, they don’t amount to
very much. The agents knew there were drugs in Iwai’s
apartment (this was obvious, because they had conducted the controlled delivery of a package they had
reboxed); they believed the beeper had alerted, indicating the package had been opened (it hadn’t, but that
wasn’t the officers’ fault); Iwai refused to open the door
in response to their demands (he was privileged to do
so); he was moving about his apartment (what do we
think people do in their apartments?); and they heard
“rustling” noises (something, but not a noise typically
associated with destroying drugs). Considered together, I can’t conclude that the officers were excused
by the exigencies of the situation from obtaining a warrant to preserve the evidence.
And this brings me to my second point. Even if we
consider the totality of the circumstances known to the
officers at the time, what was the exigency? To preserve evidence of a crime? The officers knew of only one
gram of meth in the apartment. The task force knew
this because the officers had packed the box themselves; they knew what was originally in the box, and
they knew what was now in the box. The real evidence
was left at headquarters. They also knew that Iwai had

App. 40
retrieved the package and carried it upstairs to his
apartment. The officers had stalked Iwai every step of
the way, so what was the urgency to establish Iwai’s
connection to the meth?
We have said that “[e]xigent circumstances are
those in which a substantial risk . . . to the law enforcement process would arise if the police were to delay a
search [ ] until a warrant could be obtained.” Reid, 226
F.3d at 1027–28 (emphasis added) (quoting United
States v. Gooch, 6 F.3d 673, 679 (9th Cir. 1993)); see
United States v. Lawson, 499 F. App’x 711, 712 (9th Cir.
2012) (“No facts indicated that essential evidence
would imminently be destroyed. Most of the drugs that
had been in the box had been removed by police and
replaced with sham substances before the box was
delivered.”). The government has not shown that the
possible loss of one gram of meth out of six pounds
“ma[de] the needs of law enforcement so compelling
that the warrantless search [was] objectively reasonable.” Struckman, 603 F.3d at 743. To assert otherwise
stretches reason. “[I]n the absence of any ‘immediate
and serious consequences’ resulting from the commission of a crime, the ‘overriding respect for the sanctity
of the home that has been embedded in our traditions
since the origins of the Republic,’ militates against
warrantless entry.” Id. at 746 (emphasis added) (first
quoting McDonald v. United States, 335 U.S. 451, 460
(1948) (Jackson, J., concurring), then quoting Payton v.
New York, 445 U.S. 573, 601 (1980)). The government
did not meet its “heavy burden” to “justif[y] a

App. 41
departure from the normal procedure of obtaining a
warrant.” Driver, 776 F.2d at 810.
For me, the facts supporting the finding of exigency just don’t add up.
B
Finally, even if there was an exigency in this case,
“[e]xigent circumstances created by improper conduct
by the police may not be used to justify a warrantless
search.” Ojeda, 276 F.3d at 488. In Kentucky v. King,
the Supreme Court addressed the question of when
police, because of their own conduct, may not rely on
the exigent circumstances doctrine. The Court’s short
answer: where police “create the exigency by engaging
or threatening to engage in conduct that violates the
Fourth Amendment.” 563 U.S. at 462.
The Supreme Court in King was particularly focused on the knock and announce procedure. The
Court made quite clear that officers who knock on a
door and announce their presence do not “cause” the
exigent circumstances, even if the residents—now
alerted to police presence—respond by attempting to
destroy incriminating evidence. These persons “have
only themselves to blame for the warrantless exigentcircumstances search that may ensue.” Id. at 470. This
is because “[w]hen law enforcement officers who are
not armed with a warrant knock on a door, they do no
more than any private citizen might do,” even if they
had to “knock on the door with some force” and “announce their presence loudly.” Id. at 468–69. There are

App. 42
good reasons for officers to knock and announce, such
as to “obviate the need to apply for and execute a warrant” or to seek consent to search, or to obtain additional evidence before applying for a warrant. Id. at
466–67.
So “[u]nder what circumstances do police impermissibly create an exigency?” Id. at 471. The Court declined to answer this question with specifics, but it
offered some general guidelines: when “the officers either violated the Fourth Amendment or threatened to
do so prior to the point when they entered the apartment.” Id. The Court suggested by way of example that
police would act improperly if they “demanded” that
the resident open the door or if they threatened the
resident “by announcing that they would break down
the door if the occupants did not open the door voluntarily.” Id. at 471–72.
In the wake of King, we and other courts have
struggled to define the contours of an appropriate
knock and announce. In United States v. Perea Rey, we
held that “it remains permissible for officers to approach a home to contact the inhabitants,” but that
“[t]he constitutionality of such entries . . . hinges on
whether the officer’s actions are consistent with an attempt to initiate consensual contact with the occupants of the home.” 680 F.3d 1179, 1187–88 (9th Cir.
2012) (emphasis added). When considering those actions, we explained in United States v. Lundin that “if
the police do not have a warrant they may ‘approach
the home by the front path, knock promptly, wait
briefly to be received, and then (absent invitation to

App. 43
linger longer) leave.’ ” 817 F.3d at 1159 (quoting Florida v. Jardines, 569 U.S. 1, 8 (2013)). The Second Circuit, applying King, elaborated further: “Although law
enforcement officers, like any other citizens, have an
implied license to approach a home, knock on the door,
and try to speak with the occupants,” this license “is
limited . . . to a specific purpose.” United States v. Allen,
813 F.3d 76, 85 (2d Cir. 2016) (quoting Jardines, 569
U.S. at 8). And this purpose “generally does not include
conducting a warrantless search” id.; instead, the police have the right to knock on someone’s door “for the
purpose of asking questions of the occupants.” Lundin,
817 F.3d at 1158 (quoting Perea-Rey, 680 F.3d at 1187).
In my view, the task force’s knock and announce
went well beyond the conduct that “any private citizen
might do.” King, 563 U.S. at 469. Private citizens do not
bring seven armed people in full battle regalia, with
weapons drawn and a ballistic shield and a battering
ram, to knock on the neighbor’s door for a “consensual”
conversation.7 At no time did the officers ask Iwai to
open the door so they could talk with him. They did
not “knock promptly” and “wait briefly to be received.”
To the contrary, Agent Jones testified candidly that he
repeatedly “yelled out ‘Police,’ in a loud manner and
told the occupants to open the door.” He then kicked
the door while “announc[ing], ‘Police. Open the door.’ ”
Once he looked through the peephole, he began calling
“ ‘Bryant, I can see you through the peephole. Open the

7

Agent Jones conceded that their equipment was that “commonly used for entry purposes during search warrants.”

App. 44
door.’ ”8 The demand to open the door, accompanied by
an armed team with a ram, is almost precisely the
scenario the Court hypothesized in King: a demand for
entry accompanied by an “announce[ment] that they
would break down the door if the occupants did not
open the door voluntarily.” Id. at 471; see United States
v. Spotted Elk, 548 F.3d 641, 655 (8th Cir. 2008) (“[A]
police attempt to ‘knock and talk’ can become coercive
if the police assert their authority, refuse to leave, or
otherwise make the people inside feel they cannot refuse to open up. . . .”).
“[O]nce an attempt to initiate a consensual encounter with the occupants of a home fails, ‘the officers
should end the knock and talk and change their strategy by retreating cautiously, seeking a search warrant,
or conducting further surveillance.’ ” Perea-Rey, 680
F.3d at 1188 (citing United States v. Troop, 514 F.3d
405, 410 (5th Cir. 2008)); see King, 563 U.S. at 469–70
(“[An] occupant has no obligation to open the door or
to speak.”). Thus, when Iwai did not open the door,
“the consensual encounter . . . fail[ed],” and the officers
were required to leave promptly and “change their
strategy.” Perea-Rey, 680 F.3d at 1188; see Andino, 768
F.3d at 101 n.7 (“[A]s a general matter, once a resident
refuses to consent to a search, officers must leave the
property shortly thereafter.”) (citing Jardines, 569 U.S.
at 7–10).

8

The officer also testified that, notwithstanding the drawn
weapons, ballistics, shield, and battering ram, they “did [not] intend to enter the unit.” The facts speak for themselves.

App. 45
The officers had no intention of leaving the property “absent invitation to linger longer.” The lead agent
testified that once Iwai did not respond to his demand
to open the door, Iwai would have been treated “as a
barricaded subject” and they would have “held the location until [they] got a search warrant to be able to go
in and get him.” In other words, not only did the officers
treat the warrant as the last resort instead of the first,
but not one of the options under consideration involved
anything other than arresting Iwai in his apartment.
See Linicomn v. Hill, 902 F.3d 529, 536 (5th Cir. 2018)
(“In assessing whether the officers created the exigency, we focus on the ‘reasonableness of [their] investigative tactics leading up to the warrantless entry.’ ”)
(citation omitted). Any alleged exigency was one of the
officers’ making.
IV
This case is very troubling. But as the Second Circuit observed, “[a]ny problems in effecting the arrest
were . . . the result of [the officers’] decision to forgo
seeking a warrant, and instead go to [the defendant’s]
home with the pre-formed plan to arrest him without
a warrant.” Allen, 813 F.3d at 87 (internal quotation
marks and alterations omitted). These problems were
easily solved by obtaining a warrant.
I respectfully dissent.

App. 46
United States District Court
District of Hawaii
UNITED STATES
OF AMERICA

JUDGMENT IN A
CRIMINAL CASE

v.

(Filed Jan. 10, 2018)

BRYANT KAZUYOSHI
IWAI

Case Number:
1:15CR00723-001
USM Number:
07832-122
Myles S. Breiner
Defendant’s Attorney

THE DEFENDANT:
[🗸] pleaded guilty to count(s)

1 and 4 of the First Superseding Indictment.

[ ] pleaded nolo contendere to
count(s) which was accepted
by the court.
[ ] was found guilty on
count(s) after a plea of
not guilty.
The defendants adjudicated guilty of these offenses:
Title &
Section
See next page

Nature of
Offense

Offense
Ended

Count

App. 47
The defendant is sentenced as provided in pages 2
through 7 of this judgment. The sentence is imposed
pursuant to the Sentencing Reform Act of 1984.
[ ] The defendant has been found not guilty on
count(s) ___ and is discharged as to such count(s).
[ ] Count(s) ___ (is (are) dismissed on the motion of
the United States.
It is further ordered that the defendant must notify the United States attorney for this district within
30 days of any change of name, residence, or mailing
address until all fines, restitution, costs, and special
assessments imposed by this judgment are fully paid.
If ordered to pay restitution, the defendant must notify
the court and United States attorney of material
changes in economic circumstances.
January 9, 2018
Date of Imposition of Judgment
Derrick K. Watson
Signature of Judicial Officer
DERRICK K. WATSON,
United States District Judge
Name and Title of Judicial Officer
1/10/18
Date

App. 48
ADDITIONAL COUNTS OF CONVICTION
Title &
Section

Nature of
Offense

Offense
Ended Count

21 U.S.C.
§§ 841(a)(1),
841(b)(1)(a)
and 846

Conspiracy to Distribute 08/05/2015
and Possess With Intent
to Distribute 50 Grams
or More of Methamphetamine

1

18 U.S.C.
Possession of a Firearm 08/05/2015
§§ 924(c)(1) in Furtherance of a
(A), and
Drug Trafficking Crime
924(c)(2)

4

IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for a total term of: ONE HUNDRED
NINETY-SIX (196) MONTHS.
This term consists of ONE HUNDRED THIRTY-SIX
(13) Months as to Count 1 and SIXTY (60) Months as
to Count 4, to run consecutively to Count 1, for a total
sentence of ONE HUNDRED NINETY-SIX (196)
Months.
[🗸] The court makes the following recommendations
to the Bureau of Prisons:
1. Defendant to be placed at Terminal Island PCI
(1st choice) or Rochester PMC (2nd choice);
2. Defendant to receive Vocational and Educational Training;

App. 49
3. Defendant to be placed in RDAP – 500 Hour
Comprehensive Drug Program and Substance
Abuse Treatment Program; and
4. Defendant to participate in a mental health
assessment and treatment.
[🗸] The defendant is remanded to the custody of the
United States Marshal.
[ ] The defendant shall surrender to the United
States Marshal for this district.
[ ] at ___ on ___.
[ ] as notified by the United States Marshal.
[ ] The defendant shall surrender for service of sentence at the institution designated by the Bureau of
Prisons:
[ ] before ___ on ___.
[ ] as notified by the United States Marshal.
[ ] as notified by the Probation or Pretrial Services
Officer.
RETURN
I have executed this judgment as follows:

App. 50

a

Defendant delivered on
to
, with a certified copy of this judgment.
UNITED STATES MARSHAL

By
DEPUTY UNITED STATES MARSHAL

SUPERVISED RELEASE
Upon release from imprisonment, the defendant
shall be on supervised release for a term of: FIVE (5)
Years.
This term consists of FIVE (5) Years as to each of
Counts 1 and 4, with both terms to run concurrently.
The defendant shall not commit another federal, state
or local crime.
That the defendant shall not unlawfully possess a controlled substance. The defendant shall refrain from
any unlawful use of a controlled substance. The defendant shall submit to one drug test within 15 days of
commencement on supervision and at least two periodic drug tests thereafter, but not more than 8 valid
drug tests per month during the term of supervised release.
[ ] The above drug testing condition is suspended,
based on the court’s determination that the defendant poses a low risk of future substance abuse.
(Check, if applicable.)

App. 51
[🗸] The defendant shall cooperate in the collection of
DNA as directed by the probation officer. (Check,
if applicable.)
[ ] The defendant shall comply with the requirements of the Sex Offender Registration and Notification Act (42 U.S.C. § 16901, et seq.) as directed
by the probation officer, the Bureau of Prisons, or
any state sex offender registration agency in
which he or she resides, works, is a student, or was
convicted of a qualifying offense. (Check, if applicable.)
[ ] The defendant shall participate in an approved
program for domestic violence. (Check, if applicable.)
If this judgment imposes a fine or restitution, it is
a condition of supervised release that the defendant
pay in accordance with the Schedule of Payments
sheet of this judgment.
The defendant must comply with the standard
conditions that have been adopted by this court as well
as with any additional conditions on the attached page.
STANDARD CONDITIONS OF SUPERVISION
1)

You must report to the probation office in the federal judicial district where you are authorized to
reside within 72 hours of the time you are released, unless the probation officer instructs you
to report to a different probation office or within a
different time frame.

2)

After initially reporting to the probation office, you
will receive instructions from the court or the

App. 52
probation officer about how and when to report to
the probation officer, and you must report to the
probation officer as instructed.
3)

You must not knowingly leave the federal judicial
district where you are authorized to reside without first getting permission from the court or the
probation officer.

4)

You must answer truthfully the questions asked
by the probation officer. Your legitimate invocation
of the Fifth Amendment privilege against self-incrimination in response to a probation officer’s
question shall not be considered a violation of this
condition.

5)

You must live at a place approved by the probation
officer. If you plan to change where you live or who
lives with you, you must notify the probation officer at least 10 days before the change. If notifying
the probation officer at least 10 days in advance is
not possible due to unanticipated circumstances,
you must notify the probation officer within 72
hours of becoming aware of a change or expected
change.

6)

You must allow the probation officer to visit you at
any time reasonable under the circumstances at
your home or elsewhere, and you must permit, to
the extent you are able or authorized to do so, the
probation officer to take any items prohibited by
the conditions of your supervision that the officer
observes in plain view.

7)

You must work full time (at least 30 hours per
week) at a lawful type of employment, unless the
probation officer excuses you from doing so. If you

App. 53
do not have full-time employment, you must try to
find full-time employment, unless the probation
officer excuses you from doing so. If you plan to
change where you work or if there are substantial
changes to your job responsibilities, you must notify the probation officer at least 10 days before the
change. If notifying the probation officer at least
10 days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of becoming aware of a
change or expected change.
8)

Unless you have received advance permission
from the probation officer or the association is required by supervision conditions, you must not
voluntarily and intentionally associate with any
person you know is engaged in committing a federal, state, or local crime, not including traffic offenses, whether the crime is being committed in or
outside of your presence. If you know someone has
been convicted of a felony, you must not knowingly
communicate or interact with that person without
first getting the permission of the probation officer.

9)

If you are arrested or questioned by a law enforcement officer, you must notify the probation officer
within 72 hours.

10) You must not own, possess, or have access to a firearm, ammunition, destructive device, as defined In
18 U.S.C. § 921(a)(4), or dangerous weapon (that
is, anything that was designed or was modified for
the specific purpose of causing bodily injury or
death to another person, such as nunchakus or
tasers).

App. 54
11) You must not act or make any agreement with a
law enforcement agency to act as a confidential
human source or informant without first getting
the permission of the court.
12) If the probation officer determines that you pose a
risk to an organization or a person relating to your
criminal record or personal history or characteristics, the probation officer may require, with the
court’s approval, that you notify that organization
or person (or that person’s parent, guardian, caretaker, or other individual responsible for the person’s welfare) about the risk, and you must comply
with that instruction. The probation officer may
contact the organization or person that you were
directed to notify and confirm that you notified
that organization or person about the risk.
13) You must follow the instructions of the probation
officer related to the conditions of supervision.
SPECIAL CONDITIONS OF SUPERVISION
1.

You must participate in and comply with substance abuse treatment program and follow the
rules and regulations of that program. The probation officer, in consultation with the treatment provider, will supervise your participation in the
program (such as provider, location, modality, duration, and intensity).

2.

As part of the substance abuse treatment regimen
and monitoring, you must submit to substance
abuse testing to determine if you have used a prohibited substance. You must not attempt to obstruct or tamper with the testing methods.

App. 55
3.

You are prohibited from using marijuana, synthetic marijuana, any products containing tetrahydrocannabinol, or any other products derived
from a marijuana plant, including for medicinal or
business purposes, without the prior approval of
the Court.

4.

You must provide the probation officer access to
any requested financial information and authorize
the release of any financial information. The probation office may share financial information with
the U.S. Attorney’s Office.

5.

You must participate in a mental health treatment
program and follow the rules and regulations of
that program. The probation officer, in consultation with the treatment provider, will supervise
your participation in the program (such as provider, location, modality, duration, and intensity).

6.

You must not engage in any form of gambling (including, but not limited to, lotteries, on-line wagering, sports betting) and shall not enter any casino
or other establishment where gambling is the primary purpose (such as horse race tracks, off-track
betting establishment, cock fights).

7.

You must submit your person, property, house, residence, vehicle, papers, or office, to a search conducted by a United States Probation Officer.
Failure to submit to a search may be grounds for
revocation of release. You must warn any other occupants that the premises may be subject to
searches pursuant to this condition. An officer may
conduct a search pursuant to this condition only
when reasonable suspicion exists that you have
violated a condition of supervision and that the

App. 56
areas to be searched contain evidence of this violation. Any search must be conducted at a reasonable time and in a reasonable manner.
CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on
Sheet 6.
Assessment Fine
TOTALS $ 200.00

$

Restitution
$

[ ] The determination of restitution is deferred until
. An Amended Judgment in a Criminal Case
(AO 245C) will be entered after such determination.
[ ] The defendant must make restitution (including
community restitution) to the following payees in
the amount listed below.
If the defendant makes a partial payment, each
payee shall receive an approximately proportioned
payment, unless specified otherwise in the priority
order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(i), all nonfederal victims must be paid before the United States
is paid.
Total
Name of Payee Loss*

Restitution Priority or
Ordered
Percentage

TOTALS

$ ___

$ ___

[ ] Restitution amount ordered pursuant to plea
agreement $ ___

App. 57
[ ] The defendant must pay interest on restitution
and a fine of more than $2,500, unless the restitution or fine is paid in full before the fifteenth day
after the date of the judgment, pursuant to 18
U.S.C. § 3612(f). All of the payment options on Sheet
6 may be subject to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).
[ ] The court determined that the defendant does not
have the ability to pay interest and it is ordered
that:
[ ] the interest requirement is waived for the
[ ] fine [ ] restitution.
[ ] the interest requirement for the [ ] fine
[ ] restitution is modified as follows:
*Findings for the total amount of losses are required
under Chapters 109A, 110, 110A, and 113A of Title 18
for offenses committed on or after September 13, 1994,
but before April 23, 1996.
SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties are due
as follows:
A [ ] Lump sum payment of $ ___ due immediately,
balance due
[ ] not later than ___, or
[ ] in accordance [ ] C, [ ] D, [ ] E, or [ ] F below; or

App. 58
B [🗸] Payment to begin immediately (may be combined with [ ] C, [ ] D or, [ ] F below); or
C [ ] Payment in equal ___ (e.g., weekly, monthly,
quarterly) installments of $ ___ over a period of
(e.g., months or years), to commence ___ (e.g., 30
or 60 days) after the date of this judgment; or
D [ ] Payment in equal ___ (e.g., weekly, monthly,
quarterly) installments of $ ___ over a period of
(e.g., months or years), to commence ___ (e.g., 30
or 60 days) after release from imprisonment to a
term of supervision; or
E [ ] Payment during the term of supervised release
will commence within ___ (e.g., 30 or 60 days)
after release from imprisonment. The court will
set the payment plan based on an assessment
of the defendant’s ability to pay at that time; or
F [ ] Special instructions regarding the payment of
criminal monetary penalties:
If this judgment imposes imprisonment, payment of
criminal monetary penalties is not due during imprisonment, unless specifically required by this judgment.
However, this order does not preclude a defendant
from making voluntary payments towards any criminal monetary penalties. All criminal monetary penalties, except those payments made through the Federal
Bureau of Prisons’ Inmate Financial Responsibility
Program, are made to the Clerk of the Court.
The defendant shall receive credit for all payments
previously made toward any criminal monetary penalties imposed.

App. 59
[ ] Joint and Several
Defendant and Co-Defendant Names and Case
Numbers (including defendant number. Total
Amount, Joint and Several Amount, and corresponding pay, if appropriate.
[ ] The defendant shall pay the cost of prosecution.
[ ] The defendant shall pay the following court
cost(s):
[🗸] The defendant shall forfeit the defendant’s interest in the following property to the United States:
See ECF No. [148] Final Order of Forfeiture filed
March 10, 2017, which is incorporated hereby be
reference and lists the following items of specific
property:
(a) $32,240.00 in U.S. currency seized on August
5, 2015 from Iwai’s residence in Aiea, Hawaii;
and
(b) One Smith & Wesson .38 caliber revolver
(several number J281406) and five rounds of
W-W brand .38 caliber ammunition seized on
August 5, 2015 from Iwai’s residence in Aiea,
Hawaii.
Payments shall be applied in the following order: (1)
assessment, (2) restitution principal, (3) restitution interest, (4) fine principal, (5) fine interest, (6) community restitution, (7) penalties, and (8) costs, including
cost of prosecution and court costs.

App. 60
IN THE UNITED STATES DISTRICT COURT
IN THE DISTRICT OF HAWAII
UNITED STATES
OF AMERICA,

) Criminal No.
) 15-00723 HG
)
Plaintiff,
)
vs.
)
BRYANT KAZUYOSHI IWAI, )
)
Defendant.
)
ORDER DENYING DEFENDANT
BRYANT KAZUYOSHI IWAI’S MOTION TO
SUPPRESS EVIDENCE AND STATEMENTS
(ECF NO. 24)
(Filed May 13, 2016)
Defendant Bryant Kazuyoshi Iwai moves to suppress all evidence and statements the Government obtained from a controlled narcotics delivery operation
that occurred on August 5, 2015.
The Court finds that (1) the law enforcement officers’ entry into Defendant’s apartment to prevent the
imminent destruction of evidence was lawful; (2) The
officers’ seizure of the objects in plain view: a handgun,
substances resembling methamphetamine, and drug
paraphernalia, was lawful; (3) Defendant voluntarily
consented to a search of his apartment; (4) Defendant
waived his right to counsel by initiating conversation
about his conduct with the officers during his transit
to the Honolulu Bureau of Alcohol, Tobacco, and

App. 61
Firearms Office; (5) Defendant confessed voluntarily;
and (6) Defendant consented voluntarily to a search of
his cellular telephone.
Defendant Iwai’s Motion to Suppress Evidence
and Statements (ECF No. 24) is DENIED.
PROCEDURAL HISTORY
Defendant Bryant Kazuyoshi Iwai (“Defendant” or
“Defendant Iwai”) is charged in the Indictment filed on
September 17, 2015 (ECF No. 18) as follows:
Count 1 – conspiracy to distribute and possess
with intent to distribute approximately 9,479.3 grams
of methamphetamine, its salts, isomers, and salts of isomers, in violation of 21 U.S.C. §§ 841(a)(1), 841(b)(1)(A),
and 846.
Count 2 – attempt to possess, with intent to distribute approximately 2,778.6 grams of methamphetamine, its salts, isomers, and salts of isomers, in violation
of 21 U.S.C. §§ 841(a)(1), 841(b)(1)(A), and 846.
Count 3 – possession with intent to distribute approximately 6,700.7 grams of methamphetamine, its
salts, isomers, and salts of isomers, in violation of 21
U.S.C. §§ 841(a)(1) and 841(b)(1)(A).
Count 4 – possession of a firearm in furtherance
of a drug trafficking crime in violation of 18 U.S.C.
§§ 924(c)(1)(A) and 924(c)(2).
In addition to the four enumerated counts, the Indictment contained a forfeiture allegation for $32,240

App. 62
in United States currency, a Smith & Wesson .38 caliber revolver, and five rounds of W-W brand .38 caliber
ammunition, all of which were seized from Defendant’s
apartment at 98-288 Kaonohi Street, Unit 2303, Aiea,
Hawaii.
On October 13, 2015, Defendant filed DEFENDANT’S MOTION TO SUPPRESS EVIDENCE AND
STATEMENTS (“Defendant’s Motion”). (ECF No. 24).
On October 27, 2015, the United States filed its
Opposition to Defendant’s Motion. (ECF No. 28).
On January 6, 7, and 12, 2016, the Court held
hearings on Defendant’s Motion. (ECF Nos. 38; 39; 41).
On January 12, 2016, the Court ordered Defendant to undergo a mental competency evaluation. (ECF
No. 41).
On April 8, 2016, a report from a psychiatrist regarding Defendant’s mental competency was filed under seal. (ECF No. 70).
At the hearing on April 12, 2016, the Court found
Defendant competent to stand trial. The Court then
held the final hearing on the Defendant’s Motion. (ECF
No. 72).
ANALYSIS
Defendant Bryant Kazuyoshi Iwai (“Defendant” or
“Defendant Iwai”) moves to suppress all evidence and
statements the Government obtained from a controlled

App. 63
narcotics delivery operation that occurred on August 5,
2015.
Honolulu Police Officers Joshua Correa (“Officer
Correa”), Kyle Echiberi (“Officer Echiberi”), Brian
Whipple (“Officer Whipple”), Persian Lardizibal (“Officer Lardizibal”), Jennifer Bugarin (“Officer Bugarin”), and Matthew Liana (“Officer Liana”) testified at
the hearings on Defendant Iwai’s Motion to Suppress.1
United States Postal Inspector Jensen Rodrigues
(“Postal Inspector Rodrigues”) and Drug Enforcement
Agency (“DEA”) Special Agent Richard Jones (“Agent
Jones”) also testified at the hearings on Defendant
Iwai’s Motion.
Defendant did not put forward any evidence controverting the witnesses’ testimony. The Court finds
the witnesses’ testimony credible.
I.

EVIDENCE SEIZED FROM DEFENDANT
IWAI’S APARTMENT
A. The Officers’ Entry into Defendant’s
Apartment

The Fourth Amendment of the United States Constitution generally requires law enforcement officers to
obtain a warrant before entering a home uninvited.
United States v. Stafford, 416 F.3d 1068, 1073 (9th Cir.
2005). Warrantless entries are permitted only under
1

The Honolulu Police officers were also cross-designated as
Drug Enforcement Agency Task Force Officers.

App. 64
limited exigent circumstances. Kentucky v. King, 131
S. Ct. 1849, 1856 (2011) (identifying various situations
that permit warrantless searches). A recognized exigent circumstance arises when law enforcement officers enter a residence to prevent the imminent
destruction of evidence. King, 131 S. Ct. at 1856; Dixon
v. Wallowa Cnty., 336 F.3d 1013, 1018 (9th Cir. 2003).
The Government has the burden of demonstrating
the reasonableness of a warrantless entry. United
States v. Carbajal, 956 F.2d 924, 930 (9th Cir. 1992). A
warrantless entry conducted to prevent the imminent
destruction of evidence may be constitutional if supported by probable cause. United States v. Alaimalo,
313 F.3d 1188, 1193 (9th Cir. 2002). Probable cause
exists where, under the totality of circumstances,
there is a fair probability or substantial chance that
the evidence faces imminent destruction. United
States v. Brooks, 367 F.3d 1128, 1134 (9th Cir. 2004);
Dixon, 336 F.3d at 1018.
Defendant was Suspected of Drug Distribution
On August 4, 2015, the United States Postal Inspection Service intercepted a package en route from
Las Vegas, Nevada, to Defendant Iwai’s residence at
98-288 Kaonohi Street, Apartment 2303, Aiea, Hawaii.
(Motion to Suppress Hearing Exs. 11; 12). A search
warrant was obtained, and the package was opened in
the presence of Officers Bugarin and Echiberi. The
package contained approximately six pounds of methamphetamine. Officer Bugarin testified that a typical

App. 65
drug parcel contains between one and two pounds of
methamphetamine.
As a result of discovering the large quantity of
methamphetamine in the package, the United States
Postal Inspection Service and DEA planned a controlled delivery of the package to the destination address, Defendant’s apartment.
Installation of a GPS Tracking Device and
Beeper
In the morning of August 5, 2015, Officer Correa
obtained a warrant to place a GPS tracker and beeper
inside the package. (Hearing Exs. 9; 10).
A beeper is a credit card-sized device that is designed to alert law enforcement when a parcel is
opened. The beeper is triggered when one of its hairthin wires, which are attached to all sides of the box, is
severed. In most cases, the beeper alerts because the
parcel has been opened. On rare occasion, however,
some force striking the parcel or the dropping of the
parcel may sever the delicate wire and trigger the
beeper’s signal.
Officer Bugarin tested the beeper and installed it
inside the package. She then resealed the package and
tested the beeper again. The beeper passed both tests.
Defendant does not challenge the validity of the
Government’s interception and search of the package,
nor does he dispute the legality of the Government’s

App. 66
installation of a GPS tracker and beeper in the package.
The Officers Could Not Obtain an Anticipatory
Search Warrant for Defendant’s Apartment
In preparation for the controlled delivery, Officers
Correa and Echiberi surveilled Defendant’s apartment
building and learned that the postal service does not
deliver parcels to individual apartment units. Residents pick up packages from either a communal mailbox or the building manager’s office.
The officers chose to deliver the package to the
manager’s office, so as to prevent the arousal of Defendant’s suspicion. The typical delivery procedure,
however, precluded the officers from obtaining an anticipatory search warrant for Defendant’s apartment.
The officers had no ability to know where the package
would be taken or opened. See United States v. Grubbs,
547 U.S. 90, 94 (2006) (holding that an anticipatory
warrant is “based upon an affidavit showing probable
cause that at some future time (but not presently) certain evidence of crime will be located at a specified
place”) (internal quotations and citation omitted).
The Controlled Delivery
At approximately 11:48am, a group of law enforcement officers comprised of DEA agents, DEA task force
officers, and Postal Inspector Rodrigues, initiated the
controlled delivery operation. Officer Bugarin was the

App. 67
lead case agent and the only female law enforcement
officer involved with the operation. The officers positioned themselves around the apartment building’s perimeter, inside the building manager’s office, and in
stairwells near Defendant Iwai’s apartment.
At around noon, Postal Inspector Rodrigues posed
as a mail carrier and used the apartment building’s
callbox to contact apartment 2303. A male answered
the call, and Postal Inspector Rodrigues informed him
that a package would be left with the building manager.
At approximately 12:50pm, Officers Correa and
Echiberi, who were positioned as undercover officers in
the building manager’s office, observed Defendant Iwai
pick up the package and head toward the building’s elevators. Defendant entered an elevator with the package and proceeded to the 23rd floor. Officer Echiberi
observed Defendant through a video monitor that displayed a live feed from the elevator’s security camera.
Officer Echiberi updated the other law enforcement
units of Defendant’s movements. Defendant Iwai
pushed the package out of the elevator with his feet.
He then entered apartment 2303 with the package.
The officers held their respective positions and awaited
the beeper’s signal.
The Officers’ Entry into Defendant’s Apartment
At approximately 3:15pm, the beeper signaled
that the package had been opened inside Defendant’s

App. 68
apartment. Agent Jones led an entry team of around a
half-dozen officers to Defendant’s apartment.
Agent Jones knocked on the apartment’s front
door and identified himself as police at a volume loud
enough to cause a neighboring unit’s residents to open
their door. Agent Jones did not hear a response, but
saw, through the front door’s peephole, the figure of a
person stand up and walk towards the front door.
Agent Jones responded by continuing to knock and ask
that the door be opened. The person in the apartment
stepped away from the door and left Agent Jones’ view.
Agent Jones testified that he then heard what sounded
like “somebody going through a garbage can[,] like a
rustling of papers or plastic.” He concluded that evidence in the apartment was in danger of being destroyed, and ordered the team to enter the unit.
The officers breached the front door and entered
the apartment. They immediately saw Defendant Iwai
near the kitchen area. He was the only occupant of the
unit. The officers also saw the package. It was unopened.
1. The Officers Entered Defendant’s
Apartment Under Exigent Circumstances to Prevent the Imminent Destruction of Evidence
The totality of the circumstances establishes that
the officers had probable cause to believe that evidence
faced the threat of imminent destruction, and that
they entered Defendant Iwai’s apartment to prevent

App. 69
such an event from occurring. See United States v.
McCabe, 582 F. App’x 680, 682 (9th Cir. 2014) (stating
that “exigencies must be viewed from the totality of circumstances known to the officers at the time of the
warrantless intrusion”) (quoting United States v. Licata, 761 F.2d 537, 543 (9th Cir. 1985)).
The events culminating in the entry into Defendant’s apartment demonstrate that the officers’ actions
comport with the Fourth Amendment. Defendant, and
his apartment, were under investigation as part of a
drug trafficking interdiction. The United States Postal
Inspection Service had intercepted a package addressed to Defendant and found it carried six pounds
of methamphetamine. Agent Jones, a highly experienced narcotics investigator, knew that Defendant
picked up the package from the building manager’s office and brought it into his apartment. See United
States v. Hicks, 752 F.2d 379, 383-84 (9th Cir. 1985)
(overruled on other grounds) (“In assessing the existence of probable cause to enter or to search a residence,
this court has held that direct observation of contraband in a particular location is not required. A court
may also consider ‘the type of crime, nature of the
items, and normal inferences where a criminal will
likely hide contraband.’ ”) (quoting United States v.
Dubrofsky, 581 F.2d 208, 213 (9th Cir. 1978)). Despite
identifying himself as a law enforcement officer and repeatedly asking the door be opened, Agent Jones saw
the figure of a person stand up, walk towards the front
door, and then retreat to the interior of the apartment.
See Dualeh v. United States, 466 F. App’x 621, 622 (9th

App. 70
Cir. 2012) (holding that a person watching police officers from the second floor of a home they were about to
enter to serve drug-related warrants supported a finding that exigent circumstances to prevent the destruction of evidence existed). The significance of the figure’s
suspicious behavior was compounded by the rustling
noises Agent Jones heard immediately after seeing the
then-unidentified figure back away from the door. The
circumstances of these events “would cause a reasonable person to believe that entry . . . was necessary to
prevent . . . the destruction of relevant evidence.”
Brooks, 367 F.3d at 1135 (internal quotations and citations omitted); United States v. Clement, 854 F.2d
1116, 1119 (8th Cir. 1988) (officers were permitted to
enter after seeing someone look through the front
door’s peephole and retreat, and hearing a “scrambling” noise); United States v. Ashbourne, 571 F. App’x
422, 424-25 (6th Cir. 2014) (allowing warrantless entry
in a situation where officers heard unexplained noises
from inside an apartment and received no response after shouting at the resident to come to the door).
2. The Beeper’s Errant Signal did not
Render the Officers’ Entry Illegal
Defendant places great weight on the beeper’s apparent false alert. The fact that the beeper’s signal precipitated a chain of events that led to a forced entry
into the apartment is not dispositive. The officers approached the door because the beeper signal indicated
to them the package had been opened. The exigent circumstances in this case arose when the officers heard

App. 71
what sounded like the rustling of paper and plastic.
See United States v. Banks, 540 U.S. 31, 38 (2003) (recognizing that the destruction of drugs can occur in less
than 20 seconds). Once they heard the rustling noises,
“the exigency had matured, [and] the officers were not
bound to learn anything more or wait any longer before
going in.” Id. at 40.
The officers relied on the efficacy of the beeper in
good faith. The beeper passed both of Officer Bugarin’s
pre- and post-installation tests. There is no evidence
that the beeper routinely malfunctioned, or was unreliable. Testimony introduced at the hearings indicated
that while the beeper’s wires were delicate, false signals occurred on rare occasion. In this case, the Defendant had been observed kicking the parcel prior to
taking it into his apartment.
The totality of circumstances resulted in an appearance that the package and its contents were in imminent danger of destruction. Brooks, 367 F.3d at 1134.
The law enforcement officers’ warrantless entry into
Defendant’s apartment complies with the Fourth
Amendment.
B. The Officers’ Seizure of Items in Plain
View
In limited situations, the Fourth Amendment permits the government to seize, without a warrant, evidence laying in plain view. Horton v. California, 496
U.S. 128, 133-35 (1990). For the plain view exception to
apply, (1) “the officers must be lawfully searching the

App. 72
area where the evidence is found”; and (2) “the incriminatory nature of the evidence must be immediately
apparent.” Stafford, 416 F.3d at 1076 (internal quotations and citations omitted).
The Officers’ Discovery of Drugs, Drug Paraphernalia, and a Firearm in Defendant’s Apartment
After the officers breached defendant’s front door,
they entered the apartment and conducted a security
sweep. The officers saw a handgun in plain view on the
living room table. They observed six clear plastic bags
containing a white powdery substance resembling
methamphetamine on the kitchen stove and on a table
in the left-side of the apartment. (See Ex. A of Def. Motion at ¶ 27, ECF No. 24). The officers also observed
drug paraphernalia commonly used to smoke methamphetamine in the apartment.
1. The Officers were Lawfully Present
in the Apartment
Law enforcement officers are lawfully present in a
particular area if they either act in accordance with a
valid warrant or satisfy one of the Fourth Amendment’s recognized exceptions. Soldal v. Cook Cnty., Ill.,
506 U.S. 56, 66 (1992).
The Court finds that the officers conducted a valid
entry into Defendant’s apartment to prevent the imminent destruction of relevant evidence. The officers’

App. 73
presence in Defendant’s apartment was lawful. See
Dixon, 336 F.3d at 1018.
2. The Incriminating Nature of the
Seized Evidence was Immediately Apparent
An item’s incriminating character is determined
in the context of surrounding circumstances. United
States v. Brinkerhoff, 404 Fed. Appx. 147, 149 (9th Cir.
2010). The incriminating nature of an item is immediately apparent if there is probable cause to believe that
the item is illegal or associated with criminal activity.
Stafford, 416 F.3d at 1076. Probable cause exists “when
the available facts would warrant a reasonably cautious person’s belief that the items in plain view are
useful as evidence of a crime.” United States v. Miller,
769 F.2d 554, 557 (9th Cir. 1985).
The handgun, bags containing a substance resembling methamphetamine, and drug paraphernalia
were immediately suspected to be incriminating evidence. When the law enforcement officers entered Defendant’s apartment, it was in the context of a drug
trafficking interdiction. The presence of a white powdery substance provided probable cause to believe that
the bags could contain drugs. Id. The drug paraphernalia also provided probable cause to believe it could
be associated with the drug trade. United States v.
Hudson, 100 F.3d 1409, 1420 (9th Cir. 1996). Similarly,
a handgun found during a drug raid’s incriminating
nature is immediately apparent. The possession of a

App. 74
firearm in furtherance of a drug trafficking crime is per
se illegal. United States v. Armstrong, 554 F.3d 1159,
1163 (8th Cir. 2009) (citing 18 U.S.C. § 924(c)(1)(A));
see also United States v. Kia, 170 F. App’x 457, 461 (9th
Cir. 2006).
The law enforcement officers’ seizure of the handgun, bags containing a substance resembling methamphetamine, and drug paraphernalia was permissible
under the plain view exception.
C. Evidence Seized Pursuant to a Consent
Search
A valid consent to search eliminates the need to
obtain a warrant or show that police conduct conformed to a recognized warrant exception. Schneckloth
v. Bustamonte, 412 U.S. 218, 222 (1973). An individual’s consent to search his residence is valid if it is voluntary. United States v. Kaplan, 895 F.2d 618, 622 (9th
Cir. 1990). The Government bears the burden of proving by a preponderance of the evidence that consent
was voluntary. Carbajal, 956 F.2d at 930.
Determining the voluntariness of a consent requires an examination of the totality of circumstances.
Kaplan, 895 F.2d at 622. No single criterion is dispositive. Id.
The Ninth Circuit Court of Appeals has identified
five factors that indicate whether an individual voluntarily consented to a search:

App. 75
(1) Whether the defendant was in custody;
(2) Whether the arresting officers had their
guns drawn or otherwise overmastered
the suspect;
(3) Whether Miranda warnings were given
prior to the search;
(4) Whether the defendant was told he had a
right to withhold his consent; and
(5) Whether the officers claimed that they
could obtain a search warrant.
United States v. Patayan Soriano, 361 F.3d 494, 502
(9th Cir. 2004).
The five factors serve as a guidepost, not as a mechanical checklist. A court may review other relevant
facts in its examination of whether the defendant’s
consent was voluntary. Id. at 502-05 (reviewing the
customary five factors while also considering whether
police officers impermissibly threatened the defendant).
Defendant’s Interactions with the Officers in
his Apartment
As Agent Jones and his team entered the apartment, they saw Defendant come out of the kitchen. Defendant was then handcuffed and seated on the living
room floor.
At the January 6, 2016 Motion to Suppress Hearing, Drug Enforcement Agency Special Agent Richard
Jones’ Testified as follows:

App. 76
Q

All right. After the apartment was deemed
safe, did you have any direct contact with Mr.
Iwai at that point?

A

Yes, sir

Q

What was the purpose of that contact?

A

I wanted to explain to Mr. Iwai what was going on, and I wanted to get his cooperation.

Q

Was Mr. Iwai handcuffed at that point?

A

Yes, sir.

Q

This occurred in what part of the apartment?

A

He was still sitting in the same position. He
was seated on the floor in the same spot where
we had detained him.

Q

And you were still in your raid gear, tactical
gear, I assume?

A

Yes, sir; but however, I put the shield away.

Q

I guess in summary, what did you tell Mr. Iwai
as to what was happening or what was going
on at that point?

A

I advised him that we did not have a search
warrant for his apartment, and that he
wanted – that I wanted him to be able to
coorperate with us so that we can get the guys
that were on the mainland, and he agreed to
coorperate with us.

Q

Okay. Did you seek any specific type of cooperation at that time, other than the general
notion of cooperation?

App. 77
A

Well, I told him as the part of the cooperation
thing that we needed to get all the drugs out
of the apartment there were already there,
and so I needed his consent to be able to
search the apartment. He’d also asked me
what he wanted me to do – or what he would
have to do for cooperation.

Q

So you made clear that you were seeking his
consent to search the apartment?

A

Yes, sir.

Q

Did Mr. Iwai indicate to you that he was okay
with that?

A

Yes, sir.

Q

Was this done in writing or verbally?

A

That was done verbally. And then once he advised that he would consent to the apartment,
I asked TFO Burgarin to get the consent to
search form.

Agent Jones testified that he did not seek to interrogate Defendant as to the circumstances of his arrest;
he was merely looking to obtain Defendant’s consent to
search the apartment. See Knope, 655 F.3d at 654 (recognizing that “a consent to search is not an interrogation within the meaning of Miranda”) (internal
quotations and citations omitted).

App. 78
Defendant Iwai Signs a Consent-to-Search Form
A few minutes after Defendant verbally agreed to
a search of his apartment, Officer Jennifer Bugarin arrived with a consent-to-search form.
Officer Bugarin met with Defendant Iwai and Officer Lardizibal in an area between the living room and
bedroom. Both officers were visibly armed and were
wearing their tactical gear with police markings. Officer Lardizibal removed Defendant’s handcuffs, and
Officer Bugarin explained the contents of the consent
form to Defendant. Officer Bugarin also wrote the
apartment address on the form.
At 3:25pm, Defendant Iwai initialed and signed
the consent form inside his apartment, unit 2303.
(Hearing Ex. 1). Officer Bugarin had mistakenly written 2302 instead of 2303. The Defendent did not notice
the error.
Additional Evidence is Found as a Result of the
Consent Search
After receiving Defendant’s signed consent form,
law enforcement officers searched the apartment and
found approximately 14 pounds of crystal methamphetamine, more than $32,000 in United States currency, a digital scale, a ledger, and plastic bags. (Ex. A
of Def. Motion at ¶¶ 27-28, ECF No. 24).

App. 79
(1) Custody
A person is considered to be in custody when his
freedom to move is curtailed in a similar degree to that
of a formal arrest. Berkemer v. McCarty, 468 U.S. 420,
440 (1984). To determine whether a person was in custody, courts look to the totality of circumstances and
ask whether a reasonable person in the same situation
would have felt at liberty to terminate any interrogation and leave. United States v. Craighead, 539 F.3d
1073, 1082 (9th Cir. 2008).
The totality of circumstances establishes that Defendant was in custody when he permitted the officers
to search his apartment. Defendant was surrounded by
multiple officers. The officers had handcuffed Defendant soon after they entered the apartment, and Defendant was seated on the living room floor when
Agent Jones asked him to consent to a search. It was
clear that Defendant was not free to leave.
(2) No Weapons Drawn
The officers who were in the apartment at the
time, including Agent Jones and Officer Bugarin, did
not have their firearms drawn.
(3) Miranda Warning
Defendant was not apprised of his Miranda rights
before Agent Jones asked him to consent to a search
of the apartment. The lack of a lack of a Miranda
warning, however, does not preclude a finding of

App. 80
voluntariness. Knope, 655 F.3d at 654; United States v.
Lara, 932 F.2d 973 (9th Cir. 1991) (unpublished op.).
The Ninth Circuit Court of Appeals has questioned
“the relevance of Miranda warnings to whether a consent to search was voluntary[,]” and suggested that
such an inquiry provides no insight into the voluntariness of a consent. United States v. Perez-Lopez, 348
F.3d 839, 846-47 (9th Cir. 2003). The Supreme Court
has also indicated that the failure to provide Miranda
warnings has no effect on the voluntariness of an individual’s consent. See generally United States v. Patane,
542 U.S. 630 (2004). The failure to provide a Miranda
warning, however, remains as one factor to consider
pursuant to binding law in the Ninth Circuit. United
States v. Basher, 629 F.3d 1161, 1168 (9th Cir. 2011)
(applying the Miranda warning factor); United States
v. Poom-Medina, 606 F. App’x 354, 355 (9th Cir. 2015)
(same).
(4) Right of Refusal
There is no evidence as to whether Defendant was
told he had a right to withhold or retract his consent.
Defendant was very cooperative and calm throughout
his interactions with the officers. He did not hesitate
in providing his consent.
(5) Threat of a Search Warrant
There is no evidence indicating that the officers
told Defendant that they could obtain a search warrant
if he did not consent to a search. The officers did not

App. 81
offer any promises to Defendant in exchange for his
consent, nor did they threaten him or force him to sign
the consent form.
Two of the five factors (no weapons drawn; no
threats) favor a finding of voluntary consent. One factor (custody) favors a finding of involuntary consent.
The remaining two factors (lack of Miranda warning;
and right to refuse consent) yield a neutral result, and
do not favor either conclusion. United States v.
Vongxay, 594 F.3d 1111, 1120 n. 6 (9th Cir. 2010) (“An
officer is not required to inform the person being
searched that he has a right to refuse consent; doing so
simply weighs in favor of finding consent”) (emphasis
in original); Perez-Lopez, 348 F.3d at 846. Since the
five-factor inquiry is not dispositive, the Court considers other relevant facts regarding Defendant’s consent
to determine its voluntariness. Patayan Soriano, 361
F.3d at 502 (“It is not necessary to check off all five factors, but many of this court’s decisions upholding consent as voluntary are supported by at least several of
the factors. . . . Nevertheless, these factors are only
guideposts, not a mechanized formula to resolve the
voluntariness inquiry”) (internal quotations and citations omitted).
a. Other Relevant Facts Support a
Finding of Voluntary Consent
Defendant’s physical and mental condition at the
time of his consent appeared normal. Testimony introduced at the hearings demonstrated that Defendant

App. 82
was not intoxicated, fatigued, or under the influence of
drugs. He was coherent and did not indicate any hesitation or misunderstanding.
The officers’ treatment of Defendant Iwai was similarly ordinary. Defendant was not handcuffed when he
signed the consent form. There is no evidence that any
law enforcement officer threatened or otherwise coerced him into agreeing to a search. Officer Bugarin
carefully explained the contents of the form to Defendant. In addition, the Ninth Circuit Court of Appeals
has held that the existence of a signed consent form is
an indication of voluntary consent. United States v.
Castillo, 866 F.2d 1071, 1082 (9th Cir. 1988) (“Execution of a consent form is one factor that indicates that
consent was voluntary”).
The Court finds Defendant’s consent to search his
apartment was voluntary under the totality of the circumstances.
b. The Consent Form is Sufficiently
Accurate
Defendant now argues that his consent is invalid,
as the consent form he signed had an error in the
apartment number. When the officers and Defendant
discussed the search of his apartment, they were in
unit 2303, where Defendant signed the consent form.
At no point was apartment 2302 involved in the investigation. See United States v. Knope, 655 F.3d 647, 654
(7th Cir. 2011).

App. 83
A consent form, like a search warrant, is valid if it
sufficiently describes the place to be searched. See
United States v. Mann, 389 F.3d 869, 876-77 (9th Cir.
2004) (upholding the validity of a search warrant that
named an incorrect address). Suppression is not appropriate because the consent form must be “interpreted
in a common sense and realistic, rather than a hypertechnical, manner.” United States v. Turner, 770 F.2d
1508, 1511 (9th Cir. 1985). The error of one digit did
not override the fact that Defendant knew that he was
consenting to search of his own apartment.
II.

DEFENDANT’S STATEMENTS TO LAW
ENFORCEMENT OFFICERS
A. Defendant’s Statements During his
Transit to the Honolulu ATF Office

Law enforcement may not use a suspect’s statements that were elicited from custodial interrogation
unless they inform him of the right to remain silent
and of his right to the presence of an attorney. Miranda
v. Arizona, 384 U.S. 436, 444 (1966). Once a suspect
subjected to custodial interrogation requests the presence of counsel, any government interrogation of that
person must cease until (1) an attorney is present or
(2) the suspect reinitiates conversation with the officers and waives his right to counsel. Davis v. United
States, 512 U.S. 452, 458 (1994) (citing Edwards v.
Arizona, 451 U.S. 477, 484-85 (1981)).

App. 84
Defendant’s Arrest
After Defendant signed the consent-to-search
form in the apartment, Officers Echiberi and Bugarin
brought him to the bedroom. Officer Echiberi informed
Defendant that he was under arrest for possession of
methamphetamine. Officer Bugarin testified that she
took out her police credentials and badge, identified
herself as a police officer, and read a card that had a
Miranda warning to Defendant. She stated:
Before we ask you any questions, you must
understand you have the right to remain silent, anything you say can be used against you
in court. You have the right to talk to a lawyer
for advice before we ask you any questions
and to have a lawyer with you during questioning. If you cannot afford a lawyer one will
be appointed for you before any questioning if
you wish. Do you understand?
Officer Bugarin testified that Defendant Iwai answered, “yes.” Officer Bugarin responded by asking
him if he was willing to answer some questions. Defendant Iwai then stated he wanted a lawyer. Officers
Echiberi and Bugarin immediately ceased any questioning and prepared Defendant for transport to the
Honolulu Bureau of Alcohol, Tobacco, Firearms and
Explosives (“ATF”) Office to be processed for booking.
Defendant’s Transit to the ATF Office
Officers Bugarin and Liana escorted Defendant
Iwai, who was in handcuffs, to a police car. Defendant

App. 85
was placed in the front passenger seat, Officer Bugarin
got into the driver’s seat, and Officer Liana sat in the
rear passenger seat behind Defendant.
During the 15-20 minute transit to the ATF Office,
Defendant Iwai began speaking to Officers Bugarin
and Liana.
At the January 6, 2016 Motion to Suppress Hearing Police Officer Jennifer Bugarin testified as follows:
Q

En route to the airport task force office from
the Pearl Ridge Square, was there any conversation between you or Officer Liana and Mr.
Iwai?

A

There was some talking, but we never discussed the case. It was more of a personal nature on Mr. Iwai’s side.

Q

So who initiated this conversation?

A

Mr. Iwai.

Q

Okay. We don’t need to know the details, but
what sorts of things were discussed?

A

I know he was really thankful about his dog
because we – I guess this lady that was working with us, she’s an agent, she helped him
like put the dog somewhere safe because he
didn’t want to leave the dog at home. And then
he spoke about his girlfriend that was supposed to be coming because he was really worried about her. I guess she was supposed to
come from Vegas that night that he arrested
him. And then he started saying, “You know
what, I just want to cooperate. What do you

App. 86
guys have for me? Like what kind of questions? I just want to help.”
Q

How did you respond, if at all, to that question?

A

At that point, I just said, “Okay, well when we
go back to the office we’ll talk about it, and I’ll
read you your rights again.”

Q

Okay. So was there any questioning of Mr.
Iwai in anything at all with regard to do with
the investigation during the transport?

A

No.

Q

Once you got to the office, where was Mr. Iwai
taken?

A

He was taken to the interview room at our office at the airport.

Neither officer questioned Defendant about the
case during the transit to the ATF Office. Officer Liana
testified that Defendant Iwai was talkative throughout
the transit.
1. Defendant Reinitiated
tion with the Officers

Conversa-

Defendant’s unsolicited statements during the
drive to the ATF Office demonstrated his willingness
and “desire to open up a more generalized discussion
relating . . . to the investigation.” Mickey v. Ayers, 606
F.3d 1223, 1235 (9th Cir. 2010) (internal quotations
omitted) (quoting Oregon v. Bradshaw, 462 U.S. 1039,
1045 (1983)). His statement, “you know what, I just

App. 87
want to cooperate,” fits within the type of comments
the appellate and district courts in the Ninth Circuit
have found to qualify as reinitiations. See, e.g., United
States v. Floyd, 77 F.3d 491 (9th Cir. 1996) (unpublished); United States v. Camacho, 930 F.2d 29 (9th
Cir. 1991) (unpublished); United States v. Mason, 993
F.Supp.2d 1308, 1313-14 (D. Or. 2014).
2. Defendant’s Unsolicited Offer to Cooperate was a Voluntary, Knowing,
and Intelligent Waiver of his Miranda
Rights
A suspect’s waiver of his right to an attorney is
valid if made voluntarily, knowingly, and intelligently.
Edwards, 451 U.S. at 482. There is no requirement that
a waiver be express; a suspect’s words or conduct may
provide a valid implied Miranda waiver. Berghuis v.
Thompkins, 560 U.S. 370, 384 (2010).
In determining whether an accused person has
made a valid waiver, courts review the totality of the
circumstances surrounding the waiver, including the
background, experience, and conduct of the suspect.
United States v. Rodriguez-Preciado, 399 F.3d 1118,
1127 (9th Cir.) amended, 416 F.3d 939 (9th Cir. 2005).
The government has the burden of showing, by a preponderance of evidence, that Defendant Iwai waived
his Miranda rights. Berghuis, 560 U.S. at 383-84.

App. 88
a. Voluntary
Under the totality of circumstances analysis, a
waiver is voluntary if the statement “was the product
of a free and deliberate choice rather than coercion or
improper inducement.” Rodriguez-Preciado, 399 F.3d
at 1128 (internal quotations and citation omitted). The
focus of a voluntariness assessment is on police behavior. United States v. Younger, 398 F.3d 1179, 1185 (9th
Cir. 2005).
During the car ride to the ATF Office, Defendant
spontaneously spoke to Officers Bugarin and Liana.
The officers did not interrogate him at any point during the transit, nor did they substantively followup on
his offer to cooperate. The testimony introduced at the
suppression hearings established that Defendant’s offer to cooperate was of his own free will. There is no
evidence of any coercive behavior on the part of the
officers. Defendant’s waiver of Miranda was voluntary.
Younger, 398 F.3d at 1185.
b. Knowing & Intelligent
A waiver is knowing and intelligent if “it is made
with a full awareness of both the nature of the right
being abandoned and the consequences of the decision
to abandon it.” Rodriguez-Preciado, 399 F.3d at 1127
(internal quotations and citations omitted).
Officer Bugarin testified that she informed Defendant of his Miranda rights, including his right to
counsel, and warned him that anything he said could

App. 89
be used against him. Defendant began speaking to Officers Bugarin and Liana while being transported. He
informed the officers that he was willing to talk about
his role in the case. In the period of time after he was
first advised of his Miranda rights and transported to
the ATF Office, Defendant changed his mind and offered to cooperate with the officers.
The totality of the circumstances surrounding Defendant’s offer of cooperation establishes that Defendant Iwai reinitiated conversation with Officers
Bugarin and Liana, and that he voluntarily, knowingly,
and intelligently waived his Miranda rights.
B. Defendant’s Confession at the ATF Office
A confession is valid if made voluntarily. United
States v. Haswood, 350 F.3d 1024, 1027 (9th Cir. 2003).
The voluntariness analysis is designed to exclude
statements obtained by physical or psychological coercion, or by any other improper inducement that causes
a suspect’s will to become overborne. United States v.
Harrison, 34 F.3d 886, 890 (9th Cir. 1994).
Defendant Iwai’s Arrival at the ATF Office
Upon arrival at the ATF Office, Defendant Iwai
was taken to an interview room. The interview room
was small, square-shaped, and had three chairs and a
table. Defendant sat in a chair. Officer Bugarin took off

App. 90
his handcuffs, gave him some water, told him that she
would return, and left the room.
Defendant’s Consent to Search his Cellular Telephone
Agent Jones and Officer Correa briefly entered the
interview room. The officers asked Defendant to consent to a search of his cellular telephone. Officer Correa provided a consent form to Defendant and
explained it to him. Defendant Iwai indicated that he
understood Officer Correa, and signed it. (Hearing Ex.
3). The officers did not question Defendant about the
case. Defendant did not have trouble communicating
with Officer Correa, nor did he appear intoxicated or
fatigued.
Officer Bugarin Informed Defendant of his Miranda Rights for a Second Time
Approximately 15 minutes after Officer Bugarin
left, she and Officer Echiberi entered the interview
room. The two officers were in plainclothes and were
not visibly armed. They sat across from Defendant
Iwai.
Officer Bugarin presented Defendant with an “Advice of Rights” form. (Hearing Ex. 2). She told Defendant that the form had the same line of questioning
that she previously presented to him in the apartment.
Officer Bugarin read each line to Defendant and told
him to initial each sentence that he understood.

App. 91
Defendant Signed a Waiver of Rights Form
At 4:30pm, Defendant signed and initialed the
“Advice of Rights” form. He wrote “yes” next to the
questions asking, “Do you understand your rights?”
and “Are you willing to answer some questions?” (Hearing Ex. 2). Defendant Iwai did not ask for an attorney.
He did not appear fatigued. Officers Bugarin and Echiberi signed the form as witnesses.
Defendant’s Confession
After Defendant signed the “Advice of Rights”
form, Officer Bugarin asked him if he wanted the interview to be recorded. Defendant declined. Officer
Echiberi proceeded to question him as Officer Bugarin
took notes. Defendant was very cooperative during
the interview, and did not appear fatigued or sleepy.
The interview lasted between one and one-and-a-half
hours.
Once Officer Echiberi completed his questioning,
Officer Bugarin left the interview room and prepared
a typewritten confession for Defendant. (Hearing Ex.
4). Officer Bugarin returned with Officer Liana. Officer
Bugarin asked Defendant Iwai to read the confession
and initial next to each paragraph that was correct. At
7:52pm, Defendant Iwai initialed next to each paragraph, and signed and dated the confession. (Hearing
Ex. 4). Defendant did not object to any part of the confession. He did not indicate that any part of the confession was incorrect. Officer Bugarin testified that she

App. 92
did not pose as a lawyer, nor did she provide legal advice to Defendant.
Defendant Assisted the Officers’ Investigation
Officer Bugarin then asked Defendant to make a
recorded telephone call to the sender of the package.
Defendant agreed. After the call, Officer Bugarin
showed a still image of security camera footage from a
Las Vegas post office. (Hearing Ex. 5). Defendant Iwai
identified a person in the picture as the sender of the
package.
1. Defendant Voluntarily Confessed
The totality of the circumstances regarding Defendant’s confession demonstrates that it was made
voluntarily. The Supreme Court and the Ninth Circuit
Court of Appeals have both held that confessions made
after advisement and waiver of Miranda warnings are
“generally [given] a virtual ticket of admissibility.”
Missouri v. Seibert, 542 U.S. 600, 608-09 (2004);
DeWeaver v. Runnels, 556 F.3d 995, 1003 (9th Cir.
2009). Defendant agreed to speak to Officers Echiberi
and Bugarin after receiving a Miranda warning at the
ATF interview room. Defendant did not ask for an attorney.
The conditions in which Defendant confessed support a conclusion that his confession was voluntary.
The interview at the ATF Office lasted between one
and one-and-a-half hours, well within the accepted

App. 93
bounds of an interrogation’s duration. United States v.
Crawford, 372 F.3d 1048, 1061 (9th Cir. 2004). There is
no evidence that the interview room was in poor condition or otherwise unacceptable. Defendant was provided with water. He was not handcuffed. Officers
Bugarin and Echiberi were not visibly armed or wearing tactical gear in the room.
Defendant’s mental and physical states were ordinary. Defendant was very cooperative during his interview with Officers Bugarin and Echiberi. He did not
appear fatigued or sleepy. Testimony introduced at the
suppression hearings indicated that Defendant never
displayed any signs of drug or alcohol intoxication.
There is no evidence that Defendant was subjected to
undue coercion or inducement, so as to cause his will
to become overborne. Harrison, 34 F.3d at 890.
a. Defendant’s Perception of Officer Bugarin
Defendant argues that his confession is invalid, as
he signed it under the impression that Officer Bugarin
was acting as his attorney. No evidence was presented
to support Defendant’s argument.
Defendant Iwai first came into contact with Officer
Bugarin during the controlled delivery operation. Officer Bugarin joined the entry team in Defendant
Iwai’s apartment and was one of the officers who arrested Defendant. Throughout their entire interaction
in the apartment, Officer Bugarin was visibly armed
and wore tactical gear that had police markings on it.

App. 94
She was the only female law enforcement officer involved with the operation. Officer Bugarin identified
herself as a police officer by showing her credentials to
Defendant. She explained to Defendant the contents of
a consent-to-search form for his apartment. She also
apprised Defendant of his Miranda rights, to which he
responded by asking for a lawyer.
After arresting Defendant, Officer Bugarin drove
him to the ATF Office in a police car. Defendant was
handcuffed throughout the entire journey. In response
to the statements Defendant initiated in the car, Officer Bugarin specifically told him that they could talk
about the case when they arrive at the ATF Office, and
that she would inform him of his rights again.
In the interview room, Officer Bugarin informed
Defendant Iwai of his Miranda rights for a second time,
reminding him that the “Advice of Rights” form she
presented contained the same content as in his apartment. She sat across from Defendant while Officer
Echiberi interviewed him. Officer Bugarin took notes
of Defendant’s statements and drafted a typed confession. She thoroughly reviewed each part of the confession with Defendant Iwai to ensure it was accurate.
The facts regarding Defendant’s interactions with
Officer Bugarin overwhelmingly establishes that no
reasonable person would mistake Officer Bugarin as
his attorney. Officer Bugarin did not attempt to deceive
Defendant into believing she was an attorney.
The evidence presented establishes that Defendant’s confession was voluntary.

App. 95
III. DEFENDANT CONSENTED TO A SEARCH
OF HIS CELLULAR TELEPHONE
The Fourth Amendment generally requires the
government to obtain a warrant or consent before
searching the contents of a cellular telephone. See
Riley v. California, 134 S. Ct. 2473, 2493 (2014). If consent is provided, the scope of a search “is limited by the
extent of the consent given for the search by the individual.” United States v. Lopez-Cruz, 730 F.3d 803, 810
(9th Cir. 2013).
The government bears the burden of proving by a
preponderance of the evidence that the consent was
voluntary. Carbajal, 956 F.2d at 930. Determining the
voluntariness of a consent requires an examination of
the totality of circumstances. Kaplan, 895 F.2d at 622.
No single criterion is dispositive. Id.
As previously stated, The Ninth Circuit Court of
Appeals has identified five factors that indicate whether
an individual voluntarily consented to a search:
(1) Whether the defendant was in custody;
(2) Whether the arresting officers had their guns
drawn or otherwise overmastered the suspect;
(3) Whether Miranda warnings were given prior
to the search;
(4) Whether the defendant was told he had a
right to withhold his consent; and
(5) Whether the officers claimed that they could
obtain a search warrant.
Patayan Soriano, 361 F.3d at 502.

App. 96
Defendant’s Consent to Search his Cellular Telephone
Shortly after he arrived at the ATF Office interview room, but before he was questioned by Officers
Bugarin and Echiberi, Defendant was asked by Agent
Jones and Officer Correa to consent to a search of his
cellular telephone. Officer Correa provided a consent
form and explained its contents to Defendant Iwai. Defendant indicated that he understood the form, and
signed it. (Hearing Ex. 3).
A. Analysis of the Five Factors
A review of the five factors supports a finding that
Defendant voluntarily consented to a search of his cellular telephone. Officer Bugarin had administered a
Miranda warning to him upon his arrest at the apartment. At the time he signed the consent form at the
ATF Office, Defendant Iwai was in custody. Agent
Jones and Officer Correa were not visibly armed. They
did not threaten or force him to sign the form.
B. Other Evidence Supports a Finding of
Voluntariness
In addition to the five factors, other evidence presented demonstrates that Defendant consented voluntarily. Officer Correa provided a consent form to
Defendant and explained it to him. Defendant Iwai
indicated that he understood the form and signed it.
(Hearing Ex. 3). The fact that Defendant signed a
consent form favors a finding of voluntary consent.

App. 97
Castillo, 866 F.2d at 1082. Defendant did not have trouble communicating with Officer Correa, nor did he
appear intoxicated or fatigued.
Defendant voluntarily consented to a search of his
cellular telephone.
CONCLUSION
(1) The law enforcement officers’ warrantless entry into Defendant’s apartment was lawful.
(2) The officers’ seizure of the objects in plain
view, a handgun, substances resembling methamphetamine, and drug paraphernalia, was lawful.
(3) Defendant’s consent to search his apartment
was voluntary.
(4) Defendant waived his right to counsel by initiating conversation about his conduct during his
transit to the ATF Office.
(5) Defendant voluntarily confessed.
(6) Defendant consented voluntarily to a search
of his cellular telephone.
Defendant Bryant Kazuyoshi Iwai’s Motion to
Suppress Evidence and Statements (ECF No. 24) is
DENIED.

App. 98
IT IS SO ORDERED.
DATED: Honolulu, Hawaii, May 13, 2016.
/s/ Helen Gillmor
Helen Gillmor
United States District Judge
[SEAL]

App. 99
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
BRYANT KAZUYOSHI IWAI,

No. 18-10015
D.C. No.
1:15-cr-00723DKW-1
ORDER

Defendant-Appellant.
Filed March 4, 2020
Before: Richard C. Tallman, Jay S. Bybee,
and N. Randy Smith, Circuit Judges.
Order
ORDER
Judge Tallman and Judge N.R. Smith have voted
to deny the petition for rehearing and recommend
denying the petition for rehearing en banc. Judge
Bybee has voted to grant the petition for rehearing and
recommends granting the petition for rehearing en
banc.
The full court was advised of the petition for rehearing and petition for rehearing en banc. A judge requested a vote on whether to rehear the matter en
banc. The matter failed to receive a majority of the

App. 100
votes of nonrecused active judges in favor of en banc
consideration. Fed. R. App. 35.
The petition for rehearing and rehearing en banc
are DENIED.

